<html>
<title> - MANAGEMENT CHALLENGES ON MONTANA'S NATIONAL FORESTS</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]




          MANAGEMENT CHALLENGES ON MONTANA'S NATIONAL FORESTS

=======================================================================

                        OVERSIGHT FIELD HEARING

                               before the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

            Wednesday, July 2, 2003 in Seeley Lake, Montana

                               __________

                           Serial No. 108-36

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov


                                 ______

88-077              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
W.J. ``Billy'' Tauzin, Louisiana     Eni F.H. Faleomavaega, American 
Jim Saxton, New Jersey                   Samoa
Elton Gallegly, California           Neil Abercrombie, Hawaii
John J. Duncan, Jr., Tennessee       Solomon P. Ortiz, Texas
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Ken Calvert, California              Calvin M. Dooley, California
Scott McInnis, Colorado              Donna M. Christensen, Virgin 
Barbara Cubin, Wyoming                   Islands
George Radanovich, California        Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Jay Inslee, Washington
    Carolina                         Grace F. Napolitano, California
Chris Cannon, Utah                   Tom Udall, New Mexico
John E. Peterson, Pennsylvania       Mark Udall, Colorado
Jim Gibbons, Nevada,                 Anibal Acevedo-Vila, Puerto Rico
  Vice Chairman                      Brad Carson, Oklahoma
Mark E. Souder, Indiana              Raul M. Grijalva, Arizona
Greg Walden, Oregon                  Dennis A. Cardoza, California
Thomas G. Tancredo, Colorado         Madeleine Z. Bordallo, Guam
J.D. Hayworth, Arizona               George Miller, California
Tom Osborne, Nebraska                Edward J. Markey, Massachusetts
Jeff Flake, Arizona                  Ruben Hinojosa, Texas
Dennis R. Rehberg, Montana           Ciro D. Rodriguez, Texas
Rick Renzi, Arizona                  Joe Baca, California
Tom Cole, Oklahoma                   Betty McCollum, Minnesota
Stevan Pearce, New Mexico
Rob Bishop, Utah
Devin Nunes, California
Randy Neugebauer, Texas

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel


                                 ------                                

                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on July 2, 2003.....................................     1

Statement of Members:
    Bordallo, Hon. Madeleine Z., a Delegate to Congress from Guam     2
    Pombo, Hon. Richard W., a Representative in Congress from the 
      State of California........................................     1
        Prepared statement of....................................     2
    Rehberg, Hon. Dennis R., a Representative in Congress from 
      the State of Montana.......................................     3

Statement of Witnesses:
    Anderson, Hon. Sherm, State Senator, Montana.................    21
        Prepared statement of....................................    22
    Bosworth, Dale, Chief, U.S. Forest Service...................     4
        Prepared statement of....................................     7
    Dahl, Anne, Executive Director, Swan Ecosystem Center........    39
        Prepared statement of....................................    41
    Harrington, Bob, Montana State Forester......................    34
        Prepared statement of....................................    36
    Kelly, Steve, Board Member, Alliance for the Wild Rockies....    30
        Prepared statement of....................................    31
    Liles, Kim, Special Projects Director, Rocky Mountain Region, 
      Hellgate Local # 885, Pulp & Paperworkers Resource Council, 
      Missoula, Montana..........................................    43
        Prepared statement of....................................    45
    Mood, Hon. Doug, Speaker, Montana House of Representatives...    18
        Prepared statement of....................................    20
    Sanders, Gordy, Resources Manager, Pyramid Mountain Lumber, 
      Inc........................................................    46
        Prepared statement of....................................    48

 
           MANAGEMENT CHALLENGES ON MONTANA'S NATIONAL FORESTS

                              ----------                              


                         Wednesday, July 2, 2003

                     U.S. House of Representatives

                         Committee on Resources

                          Seeley Lake, Montana

                              ----------                              

    The Committee met, pursuant to call, at 10 a.m., at Seeley 
Lake Elementary, 200 School Lane, Seeley Lake, Montana, Hon. 
Richard W. Pombo (Chairman of the Committee) presiding.
    Members Present: Pombo, Rehberg, and Bordallo.

  STATEMENT OF THE HON. RICHARD W. POMBO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    The Chairman. First, I'd like to thank Denny for hosting us 
here in Seeley Lake. Denny has proven himself to be integral 
member of not only the Resources Committee where he sits on the 
Forest and Forest Health Subcommittee, but also as a member of 
the Agriculture Committee where he is Vice Chairman of the 
Subcommittee on Department Operations, Oversight, Nutrition and 
Forestry. This displays Denny's understanding of forestry 
issues and his commitment to an issue so important to the State 
of Montana.
    I'd also like to recognize Denny's hard work on the 
Endangered Species Act task force, an issue of great importance 
to me as well. Furthermore, he has always been willing to 
travel to field hearings, even as far as Alaska, and doesn't 
believe in making a determination about something until he has 
an opportunity to see it and learn from it.
    In addition, I'd also like to welcome Madeleine Bordallo, 
the Delegate from Guam, for making the trek out to Montana. 
Madeleine, your attendance and concern with resources issues is 
certainly appreciated. I'd also state that Congresswoman 
Bordallo went with us when we went to the north slope of Alaska 
where, at that time, it was 40 degrees below zero, and I don't 
think she had ever seen anything quite like that, being from 
Guam.
    Ms. Bordallo. And I'm still thawing out.
    The Chairman. And she's still thawing. But it was an 
extremely important trip in it was done at the time that we 
were passing the Energy Bill through the House, so I appreciate 
her willingness to learn and to participate in the field 
hearings.
    Ensuring forest health is a top priority for me and the 
Resource Committee members that are here today. It is vitally 
important for Members of Congress to get out of Washington, 
D.C. and visit the local areas that decisions in Washington 
impact. With Montana's varied and diverse landscape, it poses 
several management challenges. Memories of the horrors of 
catastrophic wildfire are fresh in the minds of Montanans. 
Montana's Bitterroot fire of 2000 burned 357,000 acres in 
Western Montana. The fire destroyed 70 homes, 95 vehicles and 
170 other structures.
    We have a responsibility to protect our citizens, our 
property and our environment and public lands. When severe fire 
threatens, as they do throughout the West every summer, we need 
to ensure that we have a plan that will act as an instrument of 
assistance, not an instrument adding fuel to an already raging 
fire.
    Lastly, I'd like to note that this region, Region 1 of the 
Forest Service, received the most appeals on proposed projects 
than any other region in the nation. ``Analysis Paralysis'' is 
a huge problem plaguing Montana's national forests.
    Again, I thank Mr. Rehberg for having us here and look 
forward to hearing from all of our witnesses here today.
    [The prepared statement of Mr. Pombo follows:]

Statement of Hon. Richard Pombo, a Representative in Congress from the 
                          State of California

    Good morning. First I'd like to thank Denny Rehberg for hosting us 
here in Seeley Lake. Denny has proved himself to be integral member of 
not only the Resources Committee, where he sits on the Forest and 
Forest Health Subcommittee, but also as a member of the Agriculture 
Committee where he is the Vice Chairman of the Subcommittee on 
Department Operations, Oversight, Nutrition and Forestry. This displays 
Denny's understanding of forestry issues and his commitment to an issue 
so important to the State of Montana.
    I'd also like to recognize Denny's hard work on the ESA task force 
an issue of great importance to me as well. Furthermore, he has always 
been willing to travel to field hearings, even as far as Alaska, and 
doesn't believe in making a determination about something until he sees 
it.
    In addition, I'd also like to thank Madeleine Bordallo, the 
Delegate from Guam, for making the trek out to Montana. Madeleine your 
attendance and concern with resource issues is certainly appreciated.
    Ensuring forest health is a top priority for me and the Resources 
Committee members here today. It is vitally important for Members of 
Congress to get out of Washington, D.C. and visit the local areas that 
decisions in Washington impact. With Montana's varied and diverse 
landscape, it poses several management challenges. Memories of the 
horrors of catastrophic wildfire are fresh in the minds of Montanans. 
Montana's Bitterroot Fire of 2000 burned 357,000 acres in Western 
Montana. The fire destroyed 70 homes, 95 vehicles, and 170 other 
structures.
    We have a responsibility to protect our citizens, our property and 
our environment and public lands. When severe fires threaten as they do 
throughout the West every summer we need to ensure that we have a plan 
that will act as an instrument of assistance, not an instrument adding 
fuel to an already raging fire.
    Again, I thank Mr. Rehberg for having us here. I look forward to a 
good hearing and to working with him on this issue in the future.
    Thank you.
                                 ______
                                 
    The Chairman. I'd like at this time to recognize Ms. 
Bordallo, if she has any opening comments she'd like to make.

  STATEMENT OF THE HON. MADELEINE Z. BORDALLO, A DELEGATE IN 
              CONGRESS FROM THE TERRITORY OF GUAM

    Ms. Bordallo. Just very briefly, Mr. Chairman. First, I 
want to thank you very much for holding this field hearing. 
There's no better way to learn about the problems affecting the 
different states in our country and territories. And I'd also 
like to thank my colleague from Montana, Congressman Rehberg.
    I represent Guam in the U.S. Congress and am a proud member 
of the Resources Committee. Although a tropical island in the 
Pacific, we do have forests, believe it or not. We may not have 
the ponderosa pine, but we have the ifil tree, the ironwood and 
the banyan tree, amongst 100 other species. These trees have 
grown to be an important part of our culture and everyday life. 
They're used in many ways, particularly medicines. While we may 
not have as many intense and frequent fires, our forests in 
Guam are nonetheless threatened by nonnative animals that upset 
nature's equilibrium and by typhoons. I'm sure you've heard 
about our typhoons.
    So, I come here today with an appreciation for forests and 
understand the need for sound management. And again, I want to 
commend the Chairman, and I do want to say to the audience out 
there that you have a beautiful state. What little I've seen--I 
went through the mill just a few minutes ago and it was a very 
interesting tour. So, thank you, again, Chairman, for inviting 
me here today.
    The Chairman. Thank you, Congresswoman.
    Mr. Rehberg, do you have an opening statement?

 STATEMENT OF THE HON. DENNIS R. REHBERG, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF MONTANA

    Mr. Rehberg.  I do. And thank you, Mr. Chairman. And again, 
let me begin by saying thank you to the community of Seeley 
Lake and especially the administration within the elementary 
school for allowing us into your fine facility. I don't think 
I've ever seen a bigger gym in an elementary school, and this 
is a facility you should be proud of.
    You guys don't realize how difficult it was for the two of 
them to get here. I think you arrived at 2:30 in the morning, 
so they haven't seen much yet, but we hope to give them an 
opportunity to share some of our landscape with you so you can 
clearly see the Big Sky country. Yet, Mr. Pombo, he has been to 
Montana many times now over the course of the years with 
Congressman Hill. Madeleine has been here as well.
    Ms. Bordallo. Twice.
    Mr. Rehberg. Twice now. And I just want you to know that 
while congressmen get in trouble sometimes for what are 
perceived to be junkets, I feel now compelled that I have to go 
down and look at Guam. So, just because she said it's a 
tropical island, it will be work. I'm going down there to look 
at her trees to thank her for having come to Montana.
    Combating emerging health forest problems is something that 
has taken over much of the dialog in Washington, D.C. I worked 
on the Interior and Insular Affairs Committee Staff 20 years 
ago, and you never heard conversation about healthy forests. 
The problem was, it existed. It was being created at the time 
but, unfortunately, it wasn't a topic of discussion. Well, it 
is in Washington today. The Governor had a multi-state 
conference here a couple weeks ago that was attended by 
Governors from the northwest part of the United States. We've 
had continual hearings in Washington, D.C., the Healthy Forest 
Initiative brought forward by the President. And I can't think 
of a better Chairman at a perfect time to be leading that 
effort. I have only been in Congress for 3 years, but what I 
realized early on is seniority matters in Washington, D.C. If 
you don't have seniority, you don't get a lot of stuff, you 
don't get a lot voice. I was a little nervous when Chairman 
Hanson decided to retire, not knowing who was going to be the 
next Chairman. But the leadership of the House jumped many 
levels of seniority to pick Richard Pombo because of his 
experience, his desire and his knowledge of the issues that 
have such an important part of our future in the State of 
Montana.
    I often say that we're loving our forests to death, that 
we're killing it with kindness because we have a tendency to 
want to protect, but we protect so long that ultimately we end 
up with a dead or dying forest. And I think that's what we're 
seeing now. Forest fire is not the problem. Forest fire is a 
sign of the problem. It shows us, in glaring terms, the 
difficulty that we're going to have. We'll have the air 
pollution that exists, we'll have the lost jobs that exist if 
we don't get a handle on the health of our forests. We have to 
manage it better. And this hearing today will give us an 
opportunity to hear from all sides about the opportunities and 
our differing perspectives of how to manage a healthier forest.
    And again, Mr. Chairman and Madam Bordallo, thank you for 
coming to Seeley Lake, Montana and giving us the opportunity to 
highlight and showcase some of the knowledge necessary to 
better manage our forests. Thank you.
    The Chairman. Well, thank you very much.
    I'd like to, at this time, invite our first panel. On Panel 
1, we have Chief Dale Bosworth with the U.S. Forest Service, 
accompanied by Tim Love, Seeley Lake District Ranger, Lolo 
National Forest, and Deputy Regional Forester Kathy McAllister.
    Before you guys get too comfortable, if I could have you 
stand. It's customary on the Resources Committee that we swear 
in all of our witnesses. Would you raise your right hand?
    [Witnesses sworn in.]
    The Chairman. Let the record show they all answered in the 
affirmative.
    And I welcome you to our hearing today, although, Mr. 
Bosworth, we've had the opportunity in the past to work with 
you and to hear from you on a number of very important issues. 
I think you are one of our strongest supporters in terms of our 
effort to bring Congress back to the people and go out 
naturally, look at some of these forests for ourselves. So, I 
appreciate greatly you being here, the support that you've 
given the Committee in the past.
    So, as far as the oral testimony in the hearing, it is 
limited to 5 minutes for the witnesses. Your entire prepared 
statement will be included in the record, but we will have 
plenty of time for questions and answers. So, Chief, if you're 
ready, you can begin.

     STATEMENT OF DALE BOSWORTH, CHIEF, U.S. FOREST SERVICE

    Mr. Bosworth. Thank you, Mr. Chairman, and thank you, 
members of the Committee. I really am happy to be here.
    For me, this is a great opportunity for a couple of 
reasons. One, it's a great opportunity to be able to talk about 
some things that I believe are extremely important, but maybe 
more important is the great opportunity to be back in Montana. 
I've just got to tell you that I have a lot of years in my 
career in the State of Montana. I've spent about 37 years with 
the Forest Service, and about 24 of those are in the Northern 
Region, which is Montana and Northern Idaho. There are good 
people and there's good land here. And, so, I am very happy to 
be back and to see what--to try to help find some solutions to 
some of the very, very difficult problems we have.
    Just to run through a few things about Montana and the 
national forests. There's ten national forests in the state, 
and there's about 17 million acres of some of the most rugged 
mountains that you'll find anywhere in the country, and also 
rolling hills and prairies. The national forests here in 
Montana cover the multitudes. I'm proud of the fact that we 
have 3.4 million acres of wilderness in the State of Montana 
and that the Forest Service manages, the national forest 
system. That's almost 10 percent of the total nationally.
    There's some fantastic recreational opportunities here; fly 
fishing, there's backpacking, there's winter sports, there's 
motorized vehicle kinds of uses, there's cross-country skiing, 
all of the huge variety of kinds of recreation that you can 
find on the national forest. There's great fish and wildlife 
habitat here. There's clean water. And there's also 
opportunities for commodity production, for the Forest Service 
to play a role in the economic vitality of the rural 
communities. In fact, it's all these things, I think, the 
reason that I like Montana so much and the reason I plan on--
    The Chairman. Just pull it a little closer.
    Mr. Bosworth. Is that better?
    The Chairman. Yeah.
    Mr. Bosworth. OK. And I think it's, for me, that the reason 
I plan to be back in Montana when I'm done with my job is 
partly because of the national forests in this state and 
because of the beauty of the national forest and the 
relationship between the forest and the people.
    It's also, I want to point out, that Lewis and Clark spent 
a fair amount of time in the State of Montana, and we're 
planning on celebrating that bicentennial. All the folks around 
here are, and it's a real exciting opportunity. And I think 
that this is probably some of the country that is most like it 
was when Lewis and Clark traveled through on both their trip to 
and from the West Coast. And there's an awful lot of the 
attention to the problems and the contentious issues in the 
Forest Service and on the national forests these days. But I 
think, also, it is worthwhile maybe to reflect a little bit on 
some of these tremendous positives that are associated with 
having national forests here in the state.
    Our goal in the Forest Service is to have healthy forests 
so that we can enjoy these national forests, as well as the 
next generation and the generations after that. In some cases, 
that means restoration of the conditions so that the forests 
are going to be healthy. For example, because we've been so 
successful in suppressing fires and because of some of our past 
activities, we've had some, in our inability to do some of the 
thinning that we need, we've had some huge wildfires here. The 
year 2000 was a terrible, a terrible season. I think ponderosa 
pine forests here in Montana are a good example of how we can 
buildup fuels that can result in catastrophic wildfires that 
are just unnatural.
    The central focus, the thing that we need to keep thinking 
about, when we're thinking about managing national forests, is 
what we leave on the land and not be focusing so much and 
arguing so much about what we remove, because if we leave the 
right thing on the land, it will be healthy and it will provide 
the things that we need.
    My concern is that a lot of people are talking about the 
wrong things. A lot of people are worrying about logging, about 
road building and some of those kinds of things when there's 
really some incredibly important threats that we should be 
talking about to the national forests across the country, and 
to the nation's forests across the country, but here in Montana 
as well. And I want to talk about those briefly.
    The first one is the fire and fuels buildup in the dry 
parts of the national forests, the ponderosa pine type 
particularly, that results in catastrophic wildfires that we're 
seeing time and time again on the news. That's a first threat.
    Then, another threat that I think is just as bad that we're 
not talking about and not paying attention to is invasive 
species. And for us here in Montana, that's primarily weeds, 
noxious weeds that come from other continents, but it also 
could be insects and diseases. And we've seen some huge effects 
with things like western white pine that has virtually 
disappeared from the forests here because of white pine blister 
rust.
    Another one is unmanaged recreation. And people love their 
forests and they love them to death, as you said, Mr. Rehberg. 
And I think that the unmanaged recreation is a problem. You 
know, it was fine when we didn't have a whole lot of people 
that wanted to recreate on the national forests, but as many 
people that want to come to the forests, we have to do a better 
job of managing it. Highway vehicles is a good example where 
it's a good opportunity for people to go out on their national 
forests, a good way for them to enjoy it, but it has to be 
managed. It has to be on designated roads and trails so we can 
minimize the damage and still allow people to have a fantastic 
opportunity to have that form of recreation.
    And then, the last area that I really view as a potential 
threat to the national forests has to do with habitat 
fragmentation through land conversion. And I'm thinking 
primarily of ranches and large forested landscapes that become 
subdivided, partly because--maybe because of some of the things 
that we're doing and the way we manage the national forests. 
And when they become subdivided into ranchettes and into 
smaller tracts and it puts more homes out in the wildland-urban 
interface, it creates more of an opportunity for invasive 
species and some of those kind of challenges that we have.
    So, those are the four things I believe, after having 37 
years of wandering around the forests, that I think are the 
things that we should be talking about, worrying about, 
figuring out how we're going to deal with those so we can have 
these beautiful forests in the future.
    We also have some issues with our process and the analysis 
paralysis, the process predicament and some of those problems 
we have. And we've been getting--we've had a lot of discussion 
hearings. I appreciate the support and the help of Congress and 
this Committee in trying to deal with those problems so that we 
can solve them in a way that will still allow us to do the 
right job on the land, but do it in a manner that doesn't use 
up all the taxpayers' dollars in planning and analysis, but 
rather being on the ground working with people to figure out 
how they want their forestry managed.
    I also want to last commend the Committee for the support 
on stewardship contracting. I really believe that stewardship 
contracting in the long run will be one of the solutions that 
will help us find a way to manage the national forests in a way 
that will be acceptable by a lot of people and be able to be 
more efficient in terms of dollars. We've made a lot of 
progress. And here in The Northern Region, there's been far 
more pilot stewardship contracts than anyplace else in the 
country. I think there's about 21 or 23 here in Montana alone, 
and it's a demonstration for the rest of the country. So, I 
think through stewardship contracting we have an opportunity to 
make a big difference as well.
    So, again, I appreciate the support of this Committee. I'm 
happy to answer any questions and look forward to the 
discussion.
    [The prepared statement of Mr. Bosworth follows:]

   Statement of Dale Bosworth, Chief, Forest Service, United States 
                       Department of Agriculture

    Thank you for the opportunity to discuss forest management 
challenges in Montana, as well as the rest of the country. Before I 
begin let me thank you, Mr. Chairman, for your support of the Forest 
Service and your focus on managing the nation's natural resources. I 
think the 192 million acres of national forests and grasslands in 
America are truly a national treasure. Nearly 17 million of those acres 
are right here in Montana. The national forests are some of the most 
outstanding places in this country. They serve as America's outdoor 
playground, and they contain a wealth of wildlife and other natural 
resources.
    We are living in a time of great issues and great debate. Some 
people and organizations still argue that timber harvest levels 
represent the greatest threat to the national forests. However loudly 
voiced or strongly held these views may be, they are not a full picture 
of the reality of management of the national forests now or over the 
next 100 years. National Forest annual timber cut has gone from a high 
of around 12 billion board feet in 1988 to around 2 billion board feet 
today. Today, the primary purpose for timber removal in most places is 
to improve wildlife habitat, restore watershed and ecosystems, and 
reduce hazardous fuels.
    I believe the key issues associated with America's forests and 
grasslands include hazardous fuels and the protection of communities 
from catastrophic wildfire, and invasive species and pathogens, 
fragmentation and unmanaged recreation.
    The need for action to restore our Nation's public forests and 
rangelands to long-term health has never been greater. Catastrophic 
fires are just one consequence of the deteriorating forest and 
rangeland health that now affects more than 190 million acres of public 
land, an area twice the size of California. Last year alone, wildfires 
burned over 7.2 million acres of public and private lands, leading to 
the destruction of thousands of structures and the evacuation of tens 
of thousands of people from hundreds of communities. Although 
nationally wildland fire activity so far this year had been less than 
the average of the last few years, on June 17, 2003, the Aspen Fire 
blew out of the Pusch Ridge Wilderness in southern Arizona and 
overwhelmed the community of Summerhaven, Arizona destroying an 
estimated 325 homes, businesses and other structures. We are seeing 
critical situations in the southwest and these conditions are spreading 
northward. Although the National Interagency Coordination Center has 
stated that wildfires this year to date are far below average, large 
portions of Arizona, California, Idaho, Oregon, Nevada, Utah, 
Washington, and Montana, as well as sections of Colorado and Wyoming, 
are predicted to have above average fire activity this summer.
    The underlying issue is that so many of our forests have become 
overgrown and unhealthy. I don't want to oversimplify--many forests are 
healthy, and some forest types were always dense. But on the national 
forests alone, millions of acres adapted to frequent fire are at risk 
from wildland fires that could compromise human safety and ecosystem 
health.
    Ponderosa pine is a prime example. Historically, most ponderosa 
pine forests were relatively open, with a few dozen trees per acre. 
Today, they might have hundreds or even thousands of trees per acre. In 
a drought, all those trees can fuel a catastrophic fire with the 
potential loss of homes, communities, municipal water sources and 
wildlife habitat. Think of it as an environmental debt, like a toxic 
dump. It will take decades of action to clean up, provided we as a 
society are willing to focus on this issue and commit the needed 
resources.
    Americans must decide: We can remove some of the trees and lower 
the risk of catastrophic fire; or we can do nothing and watch them 
burn. I think the choice is obvious: In a good part of the West where 
forests are overgrown we must return forests to the way they were 
historically, then get fire back into the ecosystem when it's safe.
    At the same time, we've got tens of millions of acres of healthy 
fire-adapted forest. We've got to keep them healthy. That means getting 
fire back into the ecosystem now in a prudent manner.
    Another great issue is the spread of invasive species. Federal 
forests and rangelands across the country face unusually high threats 
from the spread of invasive species and insect attacks. Nationwide, 
invasive weeds cover about 133 million acres and are expanding at the 
rate or about 1.7 million acres a year. Insects and pathogens have 
historically existed in our forests and rangelands. However, the 
frequency, extent and timing of recent outbreaks are out of the 
ordinary. Changes in tree stand density, species composition and 
structure caused by fire exclusion, the lack of active management and 
drought are factors that have significantly affected outbreak patterns. 
The result is the death of millions of trees across many thousands of 
acres in California, Utah, Arkansas, Michigan, Minnesota, the Mid-
Atlantic States and the South. Often when these areas burn with 
uncharacteristic intensity, they become very susceptible to invasive 
species, further prolonging poor forest and rangeland health.
    The third great issue is fragmentation through land conversion. 
Between 1982 and 1997 nearly 22 million acres of open land were 
converted to developed land; about 4,000 acres a day. How does that 
affect national forests and grasslands? Historically, the national 
forests were buffered by miles of rural landscape. Today, people want 
to live near or adjacent to public lands, creating the wildland/urban 
interface or WUI. Demands for services are growing, people want to use 
their forests more, and so are the challenges of property boundary 
management and fire protection.
    But maybe the biggest threat is to wildlife. Overall, we're losing 
forest interior habitat as large privately owned working forests are 
sold and developed. America is losing valuable corridors needed to 
connect parts of the national forests with other large undisturbed 
tracts of land. Animals like marten, bear, or cougar need large, 
relatively undisturbed forests to survive.
    We're also losing open areas of range which animals like elk need 
to survive. Most people don't realize that the Forest Service manages 
so much rangeland about 40 percent of national forest land is range. 
Elk depend on bottomland for winter range and move to the uplands in 
the spring. Without both types of habitat they won't survive. When golf 
courses and condominiums replace rangeland we lose the ecological 
integrity of the land as a whole.
    Our population will continue to grow, but we can direct our efforts 
on how to buffer the national forests by protecting open land by 
keeping ranches and working forests in operation. Congress has given 
the Forest Service some good programs that can help landowner keep 
their lands forested. The Forest Legacy Program is a tool to protect 
environmentally important forests from conversion to non-forest uses. 
The program is incentive based, entirely voluntary and provides for 
easement acquisitions on a willing buyer--willing seller basis only. 
Montana has been a shining example of Forest Legacy accomplishment. 
Since entering the program in 2000, the State has completed 3 projects 
protecting almost 98,000 acres. We also have forage reserves that 
ranchers can use to give their allotments a rest. Through programs like 
these, we can work together across the landscape to keep the land 
whole, in the best tradition of conservation.
    The fourth great issue is unmanaged outdoor recreation. Last year, 
the national forests had 214 million visitors, which is just 
phenomenal. And it's only going to keep on growing we expect it to more 
than double by the end of the century.
    I think that's great. We want the American people to use their 
national forests and grasslands. It gives them a stake in the land. It 
gives them a sense of place. It helps them understand why we in the 
Forest Service are so passionate about the land why we think it's so 
worth protecting.
    The issue is this: Back when we had light recreational use, we 
didn't need to manage it; but now that it's heavier, we do. At one 
time, we didn't manage the use of off-highway vehicles, either. OHVs 
are a great way to experience the outdoors, and only a tiny fraction of 
the users leave lasting traces by going cross-country. But the number 
of people who own OHVs has just exploded in recent years. In 2000, it 
reached almost 36 million. Even a tiny percentage of impact from all 
those millions of users is still a lot of impact. Each year, we get 
hundreds of miles of what we euphemistically refer to as ``unplanned 
roads and trails.
    For example, the Lewis and Clark National Forest here in Montana 
has more than a thousand unplanned roads and trails reaching for almost 
650 miles. That's pretty typical for a lot of national forests, and 
it's only going to get worse. We're seeing more and more erosion, water 
degradation, and habitat destruction. We're seeing more conflicts 
between users. We're seeing more damage to cultural sites and more 
violation of sites sacred to American Indians. And those are just some 
of the impacts. We're going to have to manage that by restricting OHV 
use to designated roads, trails, and areas.
    As Federal, State and local land managers have attempted to address 
these threats and restore forest and rangeland health, their efforts 
have been severely hampered by unnecessary and costly procedural 
delays. Excessive analysis, ineffective public involvement, and 
management inefficiencies trap land managers in costly procedural 
delays, where, in some cases, a single project can take years to move 
forward. In the meantime, communities, wildlife habitat and forests and 
rangelands suffer. Fires and insect infestations that begin on public 
lands can spread to private lands as well, causing significant property 
damage and threats to public health and safety.
    Recognizing the impending crisis, especially the threats of 
catastrophic wildfire to communities and ecosystems, President Bush 
proposed the Healthy Forests Initiative (HFI) in August 2002. The 
President directed Federal agencies to develop several administrative 
and legislative tools to restore deteriorated Federal lands to healthy, 
conditions and assist in executing core components of the National Fire 
Plan. Since the President's announcement last August, Federal agencies 
have taken several regulatory steps to implement components of the HFI.
    We have established new categorical exclusions, as provided under 
the National Environmental Policy Act, for certain hazardous fuels 
reduction projects and for post-fire rehabilitation projects. These new 
CEs shorten the time between identification of hazardous fuels 
treatment and restoration projects and their actual accomplishment on 
the ground.
    CEQ Chairman Connaughton issued guidance addressing the preparation 
of environmental assessments for fuels treatment projects. The guidance 
addresses the purpose and content of an EA, specifically, that EAs 
should be focused and concise. These guidelines are now being applied 
on five national forest projects.
    We made rule changes to our appeals regulations designed to 
encourage early and meaningful public participation in project 
planning, while continuing to provide the public an opportunity to seek 
review or appeal project decisions. This allows more expedited 
application of hazardous fuels reduction projects.
    I want to thank you, Mr. Chairman, and the committee for your 
support of the recently passed Consolidated Appropriations Resolution, 
2003 (PL 108-7) which contains stewardship contracting authority that 
gives agency land managers a critical tool to implement projects 
necessary to achieve land management goals. This provision allows the 
Forest Service to enter into long-term stewardship contracts with the 
private sector, non-profit organizations, local communities, and other 
entities. Guidance for long-term implementation is now out for public 
review.
    I want to point out that one of the great successes in 
demonstrating the effectiveness of Stewardship Contracting has taken 
place right here around the Seeley Lake community. The Clearwater 
Stewardship Pilot reduced hazardous fuels and improved grizzly bear 
habitat on 600 acres through commercial thinning. Revenues were used to 
improve recreation facilities and eliminate the threat of campground 
wastes to Seeley Lake.
    I also want to thank you, Mr. Chairman, for your leadership in 
passing H.R. 1904 in the House of Representatives. This important 
legislation would provide additional tools to help land managers 
protect forests and communities from fire, insects and disease, as well 
as some of the other threats I have mentioned.
    Mr. Chairman, the Forest Service is committed to working with 
Congress, State, local and tribal officials and the public to advance 
common-sense solutions to protect communities and people, and to 
restore forest and rangeland health.
    Once again thank you for the opportunity to be here today. I will 
be glad to answer any questions you may have.
                                 ______
                                 
    The Chairman. Well, thank you very much. I'd like to start 
with, Chief, one of the issues that you brought up in terms of 
the management of our national forests and the subdividing or 
breaking up of those areas.
    What could this Committee do, what could Congress do to 
help you in managing those tracts of lands so that we stop that 
from happening because, obviously, we've got the same problem 
in California, maybe to a larger degree, but it is the same 
problem. What kind of things can we do to help you in that 
respect?
    Mr. Bosworth. Well, first, I should commend Congress for 
already having helped us in some ways along these lines. For 
example, we've got programs that would allow us some economic 
incentives for keeping some of these blocks of land undeveloped 
in things like the Farmland Protection Program and the 
Grassland Reserve Program. Also, the Administration has been 
proposing a fairly large increase in funding for the Forest 
Legacy Program, which is another program that was authorized by 
the Agriculture Committee in the 1990 Farm Bill that would 
allow, on a willing buyer-willing seller basis, would allow--
through the states, it allows the purchase of conservation 
easements that will still allow these lands to continue being 
managed for grazing or for timbering, but will remain--that 
will have to remain in those large open tracts. So, to stop the 
subdivision, the subdividing, but it will be incentive to 
continue being able to be an actively managed forest. So, some 
of those programs, I think, are the things that the Congress 
could continue to help us with, with those kinds of creative 
programs that will allow those large lands to stay intact.
    The Chairman. Let me ask you about what is more of a local 
issue here, and that's recently Greenpeace released a report 
calling the Bitterroot National Forest one of the Nation's most 
endangered forests. I also noted that the forest supervisor on 
the Bitterroot took issue with Greenpeace's political spin on 
that.
    Where do you come down on that? Do you have any comment on 
that?
    Mr. Bosworth. Yeah, it's nonsense. It's just utter 
nonsense. What Greenpeace is trying to characterize there is--
they're back to the same old tired arguments of 15 or 20 years 
ago. What they're trying to say is that if there's any timber 
harvesting taking place, that's a great threat to the national 
forest. I didn't see in there where they're talking about 
fragmentation of large ownerships. I didn't see them talking 
about recreation, unmanaged recreation. I didn't see them 
worrying about noxious weeds. We have some of the biggest 
noxious weed problems on the forests around the country. Those 
weren't the things that they were even recognizing as the 
threats. So, when they came up with their ten most threatened 
forests, they're talking about the wrong things, and they're 
just completely missing the point.
    The Chairman. I'd like to get a little bit more into that 
because that's one of the problems that we have and have had 
over the last several years with the Healthy Forest Bill was 
that we had moved forward. You know, we had the old debates of 
20 years ago about whether or not to do timber sales and all of 
the old fights, and we've kind of moved beyond that. And now 
we're talking about managing forests and trying to develop a 
more healthy natural forest because, you know, whether people 
like it or not, man has an impact on our forests one way or the 
other. And the effort that Congress has made, and thankfully 
with the support of the President, has been to try to move to a 
more healthy management of our forests. And a lot of times when 
we get into these debates and some of these groups come out 
with the old arguments and talking about things that aren't 
even on the table right now, I don't think anybody is proposing 
that we get back into the number of timber sales and the amount 
of board feet that we had in the mid '80's or early '80's. 
Nobody is even talking about that anymore, but they want to 
keep going back to that old argument.
    Mr. Bosworth. Well, that's my concern and that's the way I 
felt like that when I looked at that report; and I didn't read 
it thoroughly. But when I looked at that report, it appeared to 
me that it was going back to some of those old arguments. And 
we do, as I said in my testimony, I believe we do have some 
serious threats to the national forests. I think over our 100-
year history that the national forests has been managed very 
well by my predecessors in the Forest Service.
    On the other hand, like anything, there's been some--there 
are some unintended consequences, some of the things that 
people didn't realize during the time. I think some of the type 
of timber harvest that we did in the '60's and '70's and '80's, 
I think in many cases we removed most of the big trees and left 
the smaller trees. And when you look at the ponderosa pine type 
again, I think it's a good example of that if we had to do it 
over again, in the future we're going to be looking at leaving 
the larger trees and removing some of the medium sizes and 
smaller trees in order to leave on the land the right number, 
type and species so that fire can play it's more normal role. 
So, there's some of those kinds of things that we need to be 
looking at in the future and learning from our past mistakes. 
But, you know, I think if we continue to try to argue the 
things that aren't even taking place anymore, we're not going 
to find solutions to the important challenges that we have 
facing us in the future.
    The Chairman. Finally, in my experience, we seem to have 
much more luck in moving forward and getting beyond the 
rhetoric when we deal with local people and deal with--if 
you're talking about the forest here, dealing with the 
conservationists who live here and the timber workers who live 
here and coming up with a plan as to how we move forward and 
doing it more on a local basis.
    In your experience, do you think that that is a worthwhile 
direction to go?
    Mr. Bosworth. Well, I'm a strong supporter of collaboration 
at the community level. And I recognize and I believe strongly, 
and these being national forests, that all the people in the 
United States have a stake in. But my belief is that at the 
local level we can find solutions to some of these national 
issues. Now, it doesn't mean that people in New York City don't 
have a right and responsibility to care about what happens to 
their national forests everywhere. The place that we're going 
to find the solutions is at the local level to these national 
issues. It's different when you go out on the ground together 
and you look at a piece of land together and you're seeing the 
same thing, everybody is seeing the same thing at the same 
time, because then you can start trying to find some of those 
solutions. And it's difficult to do when you're miles and miles 
and miles away.
    So, the question is, how do people who have a stake in and 
don't live here, how do they exercise that stake. And I think 
one way is through national policy. And that sort of sets the 
sideboards in the direction for the management of the national 
forests that then local people can find solutions within those 
broad guidelines.
    The Chairman. Thank you. Ms. Bordallo.
    Ms. Bordallo. Thank you, Mr. Chairman. I'm going to take 
off a little bit on what the Chairman is talking about, working 
with the communities.
    Mr. Bosworth, Guam is about 33 percent owned by the 
Department of Defense. We have two very large military bases on 
the island. And I understand the Federal Government owns about 
29 percent of the land area of the State of Montana.
    Could you give me some example--Mr. Chairman spoke on it 
just briefly--how is your agency, as a large landlord, working 
to be user friendly to the Montana communities? Do you have any 
examples to share?
    Mr. Bosworth. Yeah, I could recite several examples, and 
I'm going to ask Tim Love, the local ranger here, to be 
thinking about this while I'm talking, Tim, and have him use an 
example of a project, stewardship projects right here.
    But the basis for what we do is always based upon public 
participation and trying to get people engaged upfront as much 
as we can so that we can have people working together on how 
their national forests ought to be managed. We do that with 
varied degrees of success. Some places we're better at it than 
we are in other places. But we are going to continue, that's 
going to continue to be the anchor point for how we manage the 
national forests. And, in fact, I want to get better at it. I 
want all of us in the Forest Service to get better at how we 
work with people. And that's why I believe that the way that we 
work with people, you know, we want to spend less time doing, 
you know, behind computer screens and windowless rooms doing 
analysis when we should be out on the ground with people trying 
to work in a collaborative way to find the solutions. I'd 
like--if I may, could I--.
    Ms. Bordallo. Yes.
    Mr. Bosworth. I like to have Tim, as a local example, talk 
about a stewardship project and how they're engaging the public 
in a collaborative way.
    Ms. Bordallo. Yes.
    Mr. Love. Thank you. It all starts with good leadership 
from the Administration and from Congress and from the Forest 
Service, where these ideas and authorities originate and, so 
that we have more flexibility to work locally and trying new 
things. And that's one of the things we've done with the 
Clearwater Stewardship Project, which is just north of this 
community.
    Ms. Bordallo. Could you explain that stewardship project? 
What is it?
    Mr. Love. It's new authorization that Congress granted to 
the Forest Service, a new way of doing business, frankly 
revolutionary in how we do business in terms of contracting 
work; timber sale, high bid, service contract, low bidder. A 
stewardship contract is awarded to the best bid. It gives us 
the ability to make an evaluation and to consider local 
considerations in awarding work that can be accomplished.
    Ms. Bordallo. And that project is ongoing?
    Mr. Love. It is. Actually, it's nearly complete.
    Ms. Bordallo. Is there anything else that you could speak 
of, any other projects?
    Mr. Love. You know, hazard fuel reduction activity in this 
community has worked effectively with older authorities, but 
it's worked effectively. And, you know, again, it's related to 
leadership, it's related to community, to a good environment 
and to the employees and to Pyramid Mountain Lumber Company, 
who is here and a very responsible part of this community in 
helping us get our work done.
    Ms. Bordallo. Well, I think this is an important aspect, 
you know. And certainly, you should, you know, engage in this 
at a much more active level, in my opinion, because we do a lot 
of that interacting in our communities on Guam with the 
military and it's worked out successfully for many, many years. 
So, I just wondered if there was something that from your side 
that you've developed to work directly with the communities and 
enhance your public image. But that's the only project you have 
going right now? Is that what you're telling me?
    Mr. Love. Well, no, there are several others. And the State 
and private side of the Forest Service is also actively 
involved in this community working with our rural fire 
department, reducing hazard fuels on private or State lands, 
providing grants for planning purposes or enhancing our 
resource facilities in the community aside from the national 
forest. And that's huge in this community.
    Ms. Bordallo. Mr. Chairman, I have one other question. This 
has to do with the appeals.
    In how many instances are hazardous fuels reduction 
projects of the Forest Service challenged in court? And can you 
give us some sense of the scope of the problem, and in how many 
instances has failure to move forward with a project because it 
was tied up in litigation resulted in the outbreak of a fire?
    Mr. Bosworth. Across the Forest Service --what I'd like to 
do is, I'd like to answer the specific numbers for the record, 
to make sure I get those correct, if I might, in writing later.
    If you look at this area, this region, this part of Montana 
and Northern Idaho, we get more appeals than just about 
anywhere else. It's probably somewhere in the vicinity of 50 
percent of the projects that are appealable in terms of fuels 
treatment end up getting appealed. I would never say that 
there's a--I can't ever point to a situation where fire got 
away because of some appeal. That's not the point to me.
    Ms. Bordallo. It's never been the case?
    Mr. Bosworth. Well, there might be but, I mean, you know, 
there's all sorts of reasons why fires get away and why 
projects aren't done in as much of a timely manner. And I don't 
think it helps much to try to point the finger, say, at 
environmental groups because they're appealing projects or at, 
you know, at industry because they did something. We have some 
problems, and we have to come together to try to solve them. 
The problem with the appeal situation is that every project is 
affected by appeals. And what I mean by that is that our people 
spend a huge amount of the dollars and time making sure that if 
they get an appeal--doing analysis and paperwork to make sure 
that if they get an appeal, that they can sustain the decision, 
or if they get litigated they can win in court, trying to reach 
that higher and higher and higher bar to be able to do that.
    I was told just a couple weeks ago that here in the Lolo 
Forest, the local national forest here, that they spend 52 
percent of their dollars, fuels dollars, on planning. You know, 
that is absolutely atrocious. And it's not their fault, it's 
our fault for them having to have that set of challenges that 
they have to deal with. We ought to be spending 15, maybe, or 
20 percent of our dollars doing planning, not 52 percent. 
That's crazy. But they do that because if they're going to get 
appealed, they need to make sure that they've got all iBAR of 
analysis there that every--you know, you can't make a mistake. 
If there's one little mistake, you'll lose.
    I can show you examples of projects where when we bring the 
appeal record in, there's like ten large boxes of files that 
you have to go through under the appeal to check everything 
out. If there's a mistake in one of those ten boxes, we lose 
and go back to the drawing board again. You know, that's just 
not a way, that's not an effective way to operate, in my view. 
So, that's why I say that all projects are affected by appeals 
one way or another.
    Ms. Bordallo. Thank you. Thank you, Mr. Chairman.
    The Chairman. Mr. Rehberg.
    Mr. Rehberg.  Thank you, Mr. Chairman.
    And in my business, the cattle business, as Richard knows, 
we have a saying, Sell them or smell them. I think the second 
half of your comment probably would be time is of the essence 
in the forest because when you have a diseased tree, if not 
treated, becomes a diseased forest. And, so, it's beyond the 
problem of just the analysis paralysis, it's what it causes and 
that is the death and destruction, ultimately, of the resource; 
isn't that true?
    Mr. Bosworth. Yeah, that's exactly right. In many cases 
there are projects that are time sensitive. I mean, I can give 
you an example of one in Utah where we couldn't get out to deal 
with crickets, things like the Mormon crickets in Utah, where 
we wanted to do some spraying to stop the population. We 
couldn't do it on the national forest. By the time they got off 
the national forest, they were built up to such a huge number 
that they took off, and they destroyed a lot of private land. 
Our process slowed us down to where we weren't able to be 
effective. We were not good neighbors because we weren't able 
to get out and do the job. There's dozen of examples here in 
Montana--.
    Mr. Rehberg. But they respect fence lines, right? They 
don't go off onto private property?
    Mr. Bosworth. And that's the problem. The insects don't--
they don't respect the private property lines, the fires don't, 
the diseases don't. And some of these cases after we've got--we 
have some disease operation, we need to move quickly; in our 
insect outbreaks. In some cases, just from a fire and fuels 
standpoint after a fire, you know, we get--.
    Mr. Rehberg. Well, let me refresh your memory of a 
conversation you and I had in the chambers back in Washington 
about the Bitterroot sale and the stoppage after the salvage. 
And my point to you was, why didn't you, if you thought you 
were correct, appeal the Molloy decision further up. If you 
remember your statement to me was, we still think we're right, 
we'd win it in court, but time is of the essence. Isn't that 
essentially what you said? You ended up settling a case that 
you didn't really want to.
    Mr. Bosworth. Yeah, that's right. You know, if you think 
about salvage, for example, which is pretty controversial in a 
lot of cases, after a fire or after insects and diseases go 
through, you only have a certain amount of time in order to get 
any economic value out of it at all. And, so, if you don't 
remove it when it's got economic value, then you end up 
removing it later but you pay somebody to remove it. Or you 
don't remove it at all and then you end up with some adverse 
consequences that we believe would take place 10 or 15 or 20 
years from now that we would like to prevent.
    So, for example, if we want to replant, reforest an area 
after a burn, but if you haven't removed some of the dead trees 
and you do some reforestation, you know, what we're doing is 
we're paying a lot of money to plant trees knowing that they're 
probably never going to grow up to be, you know, full grown 
because we're going to have another fire come through that's 
going to burn them up again. And that's a cycle that we need to 
stop.
    Mr. Rehberg. If I could refer to an article on the front 
page of the Missoulian today talking about another court 
decision stopping a sale. You're not a lawyer and I'm not a 
lawyer and maybe that makes us a little smarter in this whole 
issue because we don't need to get hung up on the illegalities 
of the legalities.
    But do you think it's in the best interest of the health of 
the forest to come up with a numerical formula for whether it's 
5 percent or 10 percent or 15 percent or even 100 percent of 
old growth? I mean, based up on your resource background, is 
that how we ought to be managing our forest, based upon 
percentages? Or is there a better way of sound science? I'm 
asking you as the manager of that. You know, we can argue about 
the court case and whether he ruled right or not, but is that 
the way we really want to manage our resources?
    Mr. Bosworth. Well, I think that there is a certain amount 
of value to having--there's a value, first, to having a certain 
amount of old growth on a national forest. What happens to it--
and that's where, you know, we have old growth dependent 
species we want to maintain, we should maintain those. Where we 
get all wrapped around the action, though, is we say, well, 
it's got to be 10 percent or it's got to be 9.2 percent. We 
only think we have 9.1 percent, we can't really prove that. 
And, you know, we get--and pretty soon we lose the purpose, the 
focus on the purpose.
    And I don't know a lot about the situation on the Kootenai, 
but it's my understanding that some of the work that was going 
to be done through these timber sales there was to try to 
protect old growth, some of the old growth stands, you know, so 
that there would be some tree removal that would allow them to 
be, again, more sustainable if fire burns through there. It's 
just sort of ironic that we would not be able to take the 
action because we want to save the old growth, when part of the 
action the purpose was to try to protect old growth. And again, 
I think we forget about what it is, the objectives, and what 
the land needs and how we can treat the land, and we get all 
focused in on all the specifics of whether the process was 
right or wrong.
    Mr. Rehberg. One final question, and that is, you know, I'm 
not a magician, but I understand the concept of slight of hand 
where you're seeing something over here while you're doing 
something over here. And I've noticed a trend in the media 
lately and in the testimony of those that oppose the healthy 
forest. They seem to be dwelling on--and it happened, if you 
remember, Mr. Chairman, in amendments by the Udall cousins, to 
try and refocus healthy forests to the urban interface.
    How does that fall into your theory of the holistic 
approach of--now, I know you talked about fragmentation, but 
you also talked about weeds and you also talked about disease. 
And do you feel or do you sense there's this sleight of hand 
going on, that they're trying to go to the most emotional area 
and that is to protect homes that are built in the forest and 
redivert the dollars to the urban interface as opposed to 
what--you know, and I'll tell you my prejudice is one of I 
would rather take care of the forest, the healthy forest. And 
if you do that, then you lessen the problem that is going to 
exist, and the homeowners will take care of themselves as well, 
given knowledge and information and training on how to protect 
themselves in their area. Do you sense the same thing or--.
    Mr. Bosworth. Well, I think there's a lot of arguments, 
debate, to try to prove a point and whether or not they're 
realistic. You know, I do believe that there is a certain 
amount of sleight of hand that goes on all around some of these 
issues.
    To me, the important thing regarding the fuels problem in 
communities is that we do need to do treatment around some of 
these communities and work with the communities to--and 
probably as a high priority to be working around those 
communities on the national forests and, you know, with the 
private land together. What I'd worry about is I worry if we do 
treatments too far away from the community and then we want to 
get fire back into the ecosystem, but if we haven't treated the 
land between there and town, you know, it's like having a sea 
of gasoline when we're striking a match, and I don't want us to 
do that.
    So, the way I'd rather do it is work our way out from the 
community and do the treatments that we need and get these 
conditions back in a situation where fire can play a more 
natural role. And it's never going to be a real natural role 
around communities, but at least if you have fire burning, you 
can--you know, we can learn a little bit better to live with 
some of those fires and be able to suppress them when we need 
to.
    I'd also like to point out that there's an awful lot of 
value out there that are way away from the community that are 
at risk because of catastrophic wildfire potential. And just 
one example would be the giant sequoias. We had a fire called 
the McNally fire last year that threatened the sequoias groves. 
Those are national treasures. Well, one of the problems is you 
have these sequoia groves and you have white fir that's growing 
up into the branches of some of these sequoias. And sequoias 
can resist fires until they get into the crown. Well, we may 
need to do some thinning underneath those trees if we want to 
protect them. They're not anywhere near a community but they're 
worth protecting and they're worth making that investment. Same 
thing with municipal watershed. It's the same thing with 
habitat for other threatened/endangered species. You know, 
there's a number of things that we need to be doing work in 
order to get the condition on the land away from the 
communities that will help that be healthy.
    Mr. Rehberg. Just a final comment for Mr. Love. Thank you 
for what you do up here.
    Congresswoman Bordallo, one of the things that we kind of 
determine success or failure of our Federal resource managers 
that live in the community is whether there's controversy or 
not. And I hear nothing but good things about you and the 
things you do up here. And it sounds like you've got a good 
community relationship, and for that, thank you. And he gets 
extra credits points, Chief Bosworth.
    Mr. Bosworth. Good, that's a good thing.
    Mr. Rehberg. Thank you, Mr. Chairman.
    The Chairman. Thank you. And I am glad that you asked that 
question about the urban interface because we've kind of gotten 
pushed back into talking about an arbitrary limit, you know, 
the quarter mile or a half mile from the urban interface is the 
only thing that can be treated. And we have fought in Congress 
very hard to allow the Forest Service the flexibility to do 
what the regional foresters and the local forest managers feel 
is the best thing for that forest. That in order to protect a 
town like this, it may make sense to go a mile on one side of 
town and a quarter mile on the other. I mean, you guys know 
that, I don't. And for us to come up with some arbitrary number 
that limits you to a quarter mile around the town, I think is 
destroying the ability of the Healthy Forest Bill to work. So, 
I do appreciate that you brought that up because that has been 
an ongoing battle.
    But I want to thank you for your testimony, for answering 
the questions. If there are any additional questions that the 
Panel has for you, they will be submitted in writing to you. 
The hearing record will be held open in order for you to answer 
any of those questions. But I want to thank you for your 
testimony and thank you for being here today.
    Mr. Bosworth. And thank you for the opportunity, and we 
appreciate the help that this Committee has given us.
    The Chairman. Thank you.
    I'd like to call up our second panel. On Panel 2, we have 
the Honorable Doug Mood, Speaker of the House, State of 
Montana; and the Honorable Sherm Anderson, Senator, State of 
Montana, representing Sun Mountain Logging.
    [Witnesses sworn in.]
    The Chairman. Let the record show that they both answered 
in the affirmative.
    Well, thank you very much for being here and participating 
in our hearing.
    Mr. Speaker, we are going to begin with you. I'd just 
remind you that if you could maintain your oral testimony to 5 
minutes, your entire written testimony will be made part of the 
record. So, Mr. Speaker.

  STATEMENT OF HON. DOUG MOOD, SPEAKER OF THE HOUSE, STATE OF 
                            MONTANA

    Mr. Mood. Chairman Pombo, I'll do my best.
    Chairman Pombo, Congressman Rehberg and Congresswoman 
Bordallo, I certainly appreciate the opportunity to come here 
and present some testimony here this morning.
    My name is Doug Mood and I have lived here in Seeley Lake 
since 1967. My family, up until 2 years ago, had been involved 
as co-owners of Pyramid Mountain Lumber here in Seeley Lake 
since 1948. Two years ago, my brother and I sold our interest 
in Pyramid to a third party. I'm also the State Representative 
from District 58, which is the district, of course, that we are 
currently in. And that district includes the eastern half of 
Missoula County, north half of Powell County, and Granite 
County in its entirety. I am in my fourth term as a state 
representative and I also currently serve as the Speaker of 
Montana's House of Representatives.
    In the district that I represent, 65 percent of the land is 
owned by the Federal Government. That large a percentage of 
land ownership is very common, as you know, in a great deal of 
the western portion of the United States. It seems to me that 
for the most part of the twentieth century, there was an 
implicit understanding between the Federal Government and the 
local communities in the West that the Federal Government, as 
the major landowner in an area, would also be a major 
contributor to the local economy. Here in Seeley Lake, for 
instance, the local ranger district, up until a few years ago, 
provided virtually 100 percent of the raw materials that were 
needed to keep the local sawmill in operation. That was true 
throughout the West. Ranchers routinely depended on Federal 
grazing permit contracts as well. Without that kind of 
cooperation between the Federal Government and local private 
enterprise, it would have been virtually impossible for most 
people to establish themselves in the communities of the West. 
Indeed, I have come to the conclusion that any major landowner 
in an area has an absolute obligation to participate in and 
contribute to the local economy. Unfortunately in recent years, 
the proliferation of new legal restraints and the accompanying 
litigation have combined to change the economies and, indeed, 
to change the very culture of the West.
    The Flathead National Forest, which is just to the north of 
us here in Seeley Lake, is an excellent example. As recently as 
the 1980's, the Flathead could be depended upon to offer 
between 100 and 120 million board feet of logs annually. That 
amount of timber was well within their annual growth rate and 
that was reflected in their forest plan documents. In recent 
years, however, that number has been reported as around 7 
million board feet. And that 7 million board feet now includes 
such things as firewood and post and pole material.
    If the argument could be made that 125 million board feet 
was too much activity, certainly the argument can now be made 
that 7 million board feet is much too little. Recent forest 
fire problems in the Flathead and throughout the West are ample 
evidence that that is, in fact, the case. The grizzly bear, the 
lynx, the wolverine and sometimes the caribou have all been 
suggested as reasons why we should suspend activity on our 
local forests. I personally fail to comprehend, however, how 
those animals are better off living with the dangers of fire as 
opposed to the temporary intrusions of forestry.
    I recently added up the annual housing start numbers from 
1945 through the year 2000. In that 55-year timeframe, the 
people of this country built over 90 million new homes. 
Certainly, this has to have been the most successful effort in 
the history of the world to provide the citizens of a country 
with affordable and comfortable housing. I also added up the 
number of acres of the national forest land in Region 1 that 
had been contracted for timber harvesting. If you divide that 
number by the total number of acres in Region 1, what you find 
is that in a 55-year period timber harvesting has taken place 
on a total of 8 percent of the land in the Region 1.
    In the rather bizarre attempt to portray loggers and 
foresters as uncaring, insensitive or perhaps even evil, we 
seem to have lost sight of two facts. Forestry is, in fact, the 
art of environmental management. Foresters are, in fact, 
trained to create healthy forests. Second, while we were in the 
process of creating healthy forests, we are also providing the 
citizens of this country with the materials that they need to 
provide themselves with affordable housing.
    It seems to me that asking Region 1 forests to contribute a 
percentage of the volume, 8 percent of the volume as their 
contribution to help build 90 million homes over a 55-year 
period is well within reason. Yet, for far too long now the 
suggestion that no amount of activity is acceptable has 
prevailed in the debate. The result of that has been an 
unnecessary disruption in the lives of rural America, the 
increase in foreign imports of lumber and the deterioration of 
the health of our own national forests. I cannot see why any of 
those three should be either acceptable or necessary.
    I believe there is also an absolute obligation on the part 
of the Federal Government to manage their lands in such a way 
that the safety of the local communities is provided for. There 
are demonstration projects in this very valley which provide 
ample proof, in my mind, that modern forestry and the forestry 
that has developed within the last 20 years can, in fact, do 
what it does and do it in a way that is healthy for the forest, 
safe for the local community and, in fact, aesthetically 
pleasing as the final result as well.
    I want to thank the Committee for coming to Seeley Lake. 
Welcome to my district. I'm fully aware of the fact that this 
is not a simple issue, nor is it easily resolved. But I know 
from my own experience that the resolution is vitally important 
to the local communities.
    [The prepared statement of Mr. Mood follows:]

 Statement of Hon. Doug Mood, Speaker, Montana House of Representatives

    My name is Doug Mood and I have lived here in Seeley Lake since 
1967. My family had been involved as the co-owners of Pyramid Mountain 
Lumber since 1948. Two years ago my brother and I sold our interest in 
Pyramid to a third party. I am the State Representative from district 
58 which includes the eastern half of Missoula County, the northern 
half of Powell County and Granite County in its entirety. I am in my 
fourth term as a state representative and I also currently serve as the 
Speaker of the Montana House of Representatives.
    In the district that I represent, sixty-five percent of the land is 
owned by the Federal Government. That large a percentage of land 
ownership is very common in a great deal of the western portion of the 
U.S. It seems to me that for most of the twentieth century, there was 
an implicit understanding between the Federal Government and local 
communities in the West, that the Federal Government, as the major land 
owner in the area, would also be a major contributor to the local 
economy. Here in Seeley Lake, for instance, the local ranger district 
provided virtually one hundred percent of the raw materials that were 
needed to keep the local sawmill operating. That was true throughout 
the west. Ranchers routinely depended on federal grazing contracts as 
well. Without that kind of cooperation between the federal Government 
and local private enterprise, it would have been impossible for most 
people to establish themselves in those communities. Indeed, I have 
come to the conclusion that any major landowner in an area has an 
absolute obligation to participate in and contribute to the local 
economy. Unfortunately in recent years, the proliferation of new legal 
restraints and the accompanying litigation have combined to change the 
economies and the very culture of the West.
    The Flathead National Forest, which is just to the north of us here 
in Seeley Lake is an excellent example. As recently as the 1980's, the 
Flathead could be depended upon to offer between 100 million to 120 
million board feet of logs annually. That amount of timber was well 
within their annual growth rate and that was reflected in their forest 
plan documents. In recent years that number has been reported as around 
7 million bd. ft. That 7 million bd. ft., by the way now includes 
firewood and post and pole material.
    If the argument could be made that 125 million bd. ft. was too much 
activity, certainly the argument can now be made that 7 million bd. ft. 
is too little. Recent forest fire problems on the Flathead and 
throughout the West are ample evidence that that is the case. The 
grizzly bear, the lynx and the wolverine have all been suggested as 
reasons why we should suspend activity in our local forests. I 
personally fail to comprehend, however, how those animals are better 
off living with the dangers of fire as opposed to the temporary 
intrusions of forestry.
    I recently added up the annual housing start numbers from 1945 
through 2000. In that 55 year time frame the people of this country 
built over 90 million new homes. Certainly this has to have been the 
most successful effort (in the history of the world) to provide the 
citizens of a country with comfortable and affordable housing. I also 
added up the number of acres of National Forest land in Region 1 that 
had been contracted for timber harvesting in that same time frame. If 
you divide the total number of acres of Region 1 forest, land where 
timber harvesting has taken place between 1945 and 2000 by the total 
amount of Forest Service land in region one, you get .08, or 8%.
    In the rather bizarre attempt to portray loggers and foresters as 
uncaring, insensitive and perhaps even evil, we seem to have lost sight 
of two facts. Forestry is the art of environment management. Foresters 
are in fact trained to create healthy forests. And secondly while we 
are in the process of creating healthy forests, we are also providing 
the citizens of this country with the materials that they need to 
provide themselves with affordable homes.
    It seems to me that asking the Region 1 forests to contribute 8% of 
their volume as their contribution to help build 90 million homes over 
a 55 year period, is well within reason. Yet for far too long now, the 
suggestion that no amount of activity is acceptable has prevailed in 
this debate. The result of that has been an unnecessary disruption of 
the lives of rural America, the increase in foreign imports of lumber 
and the deterioration in the health of our own national forests. I can 
not see why any of those three should be either acceptable or 
necessary.
    I thank the committee for its work. I am fully aware of the fact 
that this is not a simple issue that is going to be resolved easily. 
But I know from my own experienced that resolution is vitally 
important.
                                 ______
                                 
    The Chairman. Thank you.
    Senator Anderson.

  STATEMENT OF HON. SHERM ANDERSON, SENATOR, STATE OF MONTANA

    Mr. Anderson. Yes. Mr. Chairman, members of the Committee, 
my name is Sherm Anderson. I'm currently serving as a State 
Senator here in Montana. In my other life, I own and operate 
Sun Mountain Logging in Deer Lodge, Montana, a family owned 
business.
    We are engaged in the professional timber harvesting 
services that we perform for many people, sawmills, paper 
mills, pole yards, private landowners, state and Federal lands. 
What we do on the ground has a multitude of benefits that are 
oftentimes overlooked. We enhance the wildlife habitat, we 
develop home sites, we deal with clearing for recreation, such 
as ski areas and others. Reduction for wildfire and suppression 
of wildfires are also part of our business. Commercial forest 
management is also a major part of our business which 
currently, unfortunately, oftentimes is the utilization of 
salvage material from natural occurrences such as wildfire, 
wind-throws, winter-kill and insects and disease.
    In the past 10 to 15 years, our business has changed 
considerably. Operations on the national forest land previously 
occupied about 80 to 90 percent of our business, and 10 to 20 
percent was done on State and private lands. Currently, this 
situation has just reversed itself. 80 to 90 percent of our 
business is now done on State and primarily private lands, and 
10 to 20 percent on Federal lands.
    With only one-third of Montana's forests being private 
ownership, the consequences of this shift are monumental, 
ranging from economic instability for rural communities to 
unhealthy and mismanaged Federal forests. Is this shift too 
heavily burdened on private land? A primary concept of forest 
stewardship suggests that we should be removing less timber 
from more acres, not removing more timber from fewer acres.
    This change has not taken place because of a decreasing 
need to manage our national forests. It has come about because 
of National Forest policy changes that have handcuffed the very 
forest and land managers that we, the citizens of this country, 
hire as stewards of our national forests.
    We asked them to professionally manage the vast resources 
we have and, yet, we handicap them with restrictive laws and 
policies. If we wanted politicians and judges to micromanage 
our forests, why did we hire professional land managers in the 
first place? We simply need to return the management of Federal 
forests back to professional forest stewards. The judiciaries 
are currently and now the ultimate managers of our Federal 
forests in this country.
    On the other hand, positive changes that have come about in 
the past 10 to 15 years in the improvement of technology that 
enables us to do a much better job, the ability to walk lighter 
on the land. Satellite imagery and computers have enhanced our 
knowledge of how our forests actually function. Today, we can 
be more effectively utilizing the products we all demand and 
consume from our forests.
    My purpose in becoming involved in politics is probably not 
much differently than yours. I am compelled to try to make a 
difference here in Montana, to help shape the laws and rules 
and policies, especially those pertaining to our national 
resources--natural resources. Our forests are in terrible 
condition. I see that every day in our work. The need for the 
products that are growing in our forests continues to increase, 
yet some folks are more content to import wood products to 
satisfy our needs while letting our forests die and burn, 
costing the tax payers millions upon millions of dollars in 
fire suppression, with the unintended consequences of dirty 
air, dirty water, loss of wildlife habitat, loss of homes and, 
yes, even loss of life.
    There is something seriously wrong with this picture. We 
need to do something about changing it. I believe the 
President's Healthy Forest Restoration Act is a step in the 
right direction.
    Programs like forest stewardship contracts that we've heard 
already this morning are working well. However, they need to be 
applied to a much larger landscape.
    Categorical exclusions are another tool that may help our 
resource managers to protect the public interest and to get 
something beneficial done on the ground.
    There are some of the many things--these are some of the 
many things that can and should be done and need to be done 
now. Montana and other states are vastly losing the 
infrastructure that is needed to manage our forests. Colorado, 
New Mexico and Arizona virtually have no manufacturing 
infrastructure remaining.
    Our own state has suffered severely with the fires of 2000 
and 2001. And our infrastructure continues to deteriorate. In 
the past 10 years alone, Montana has lost nearly 20 primary 
manufacturing facilities.
    There is no exact science and very few guarantees when it 
comes to forest management, except that if we continue to do 
nothing we can be certain the results will be more fires and 
more devastation.
    I hope you will join those of us who are striving to make a 
difference to restore the health of our forests.
    Thank you for coming. I appreciate this opportunity to 
testify. And above all, we thank you for the hard work that you 
do on our behalf.
    [The prepared statement of Mr. Anderson follows:]

        Statement of Hon. Sherm Anderson, State Senator, Montana

    My Name is Sherm Anderson. I am currently serving as a State 
Senator for the great state of Montana. In my ``other life,'' I own and 
operate Sun Mountain Logging LLC in Deer Lodge, Montana, a family-owned 
business that employs approximately 40 people. My father preceded me in 
the timber business and my two sons are continuing the tradition.
    We are in the business of supplying professional timber harvesting 
services to sawmills, paper mills, pole yards, private landowners and 
state and federal governments.
    As professional timber harvesters, what we do on the ground has a 
multitude of benefits, some of which are: creating enhanced wildlife 
habitat; creation of home sites; clearing for recreation, such as ski 
areas; creating productive land for grazing and mining; control of 
insects or disease; the suppression and risk reduction for wildfire; 
and commercial forest management, including the utilization of salvage 
material from natural occurrences such as wildfire, wind-throw, winter-
kill or insect and disease epidemics.
    In the last 10 to 15 years our business has changed considerably. 
Operations on national forest land previously occupied about 80 to 90% 
of our business, while only 10 to 20% was on State and private lands. 
The current situation is just the reverse: 80 to 90% of our work is on 
State and private ground and 10 to 20% is on National Forests.
    Understanding that only one-third of Montana's forests are 
privately owned, the consequences of this shift are monumental, ranging 
from economic instability for rural communities to unhealthy and 
mismanaged federal forests. One consequence is the fact that the 
footprint of commercial timber harvesting is too heavily burdening 
private lands. A primary concept of forest stewardship suggests that we 
should be removing less timber from more acreage, not removing more 
timber from fewer acres.
    This change has not taken place because of a lack of opportunity on 
our national forests or because of a decreasing need to manage our 
national forests. It has come about because of National Forest policy 
changes that have handcuffed the very forest and land managers that we, 
the citizens of this country hired as stewards of our national forests.
    We asked them to professionally manage the vast resources our 
National Forests contain,...and then we handicapped them with 
restrictive laws and policies. If we, the citizens of Montana and the 
United States, wanted politicians and judges to micro-manage our 
forests, why did we hire professional land managers in the first place? 
We simply need to return the management of federal forests back to 
professional forest stewards. Well-intended congressional laws have 
been transformed into perverse forest policies--and, as a result, the 
judiciary is now the ultimate manager of federal forests in this 
country.
    On the other hand, positive change that has come about in the past 
10 to 15 years is the improvement in technology that enables us to do a 
much better job, such as the ability to walk lighter on the land. 
Space- age satellite imagery and computers have enhanced our knowledge 
of how forests function beyond any comprehension we had just a couple 
of decades back. Today, we can more effectively utilize the products we 
all demand--and consume--from our forests.
    My purpose in becoming involved in politics is probably not much 
different from yours. I am compelled to try to make a difference in 
Montana--to do what I can to help shape laws, rules and policies, 
especially those pertaining to our natural resources. Our forests are 
in a terrible condition due to lack of attention. I see it every day. 
The need for the product growing in our forests continues to increase 
yet some folks are more content to import wood products to satisfy our 
needs while letting our own forests die and burn, costing the tax 
payers millions upon millions of dollars in fire suppression, with the 
unintended consequence of dirty air, dirty water, loss of wildlife 
habitat, loss of homes and loss of life.
    There is something seriously wrong with this picture. We need to do 
something about changing it. I believe the President's Healthy Forest 
Restoration Act is a step in the right direction and I appreciate your 
passionate support for this Act.
    Programs like Forest Stewardship Contracting are working well; 
however, they need to be applied to a larger landscape if they are to 
ever meet the ideals of forest stewardship.
    Categorical Exclusions are another tool that may help our resource 
managers protect the public's interests and to get something beneficial 
done on the ground.
    These are some of the many things that can and should be done now! 
Montana and other states are losing the infrastructure that is needed 
to manage our forests. The truth and the consequences of that fact is 
evident in Colorado, New Mexico and Arizona. There is virtually no 
manufacturing infrastructure remaining in those states to do any needed 
forest management. The past two seasons of catastrophic fires have 
proven to be devastating to these states.
    Our own state has suffered severely with the fires of 2000 and 
2001, and our infrastructure continues to deteriorate, hampering our 
ability to reduce the fuels-loading in our forests. In the past ten 
years alone Montana has lost nearly 20 primary manufacturing 
facilities.
    There is no exact science and very few guarantees when it comes to 
forest management except that if we continue to do nothing we can be 
certain the result will be more fires and more devastation.
    I hope you will join those of us who are striving to make a 
difference, to restore the health of our forests.
    Thank you for coming to visit our great state and for your concern. 
I appreciate this opportunity to testify and above all, thank you for 
the hard work you do on our behalf.
                                 ______
                                 
    The Chairman. Thank you very much.
    Let's start with you, Mr. Anderson. You talked about the 
new technology and the new management practices and different 
ways of looking at things today. And obviously, you've been in 
this business for awhile. It's a generational family owned 
business.
    Do you believe that the new management techniques and the 
new technology that's available to you and your sons today 
would lead to a different way of implementing the Healthy 
Forest Initiative than what we would have done 30 years ago?
    Mr. Anderson. Yes, Mr. Chairman, I think Chief Bosworth 
touched on that briefly this morning. When folks tend to 
continue to reflect back on practices of 20 years ago, I don't 
think anyone can look at our forests today in the way we manage 
them, the way we harvest them, and say that we haven't made 
giant strides, and especially in this state. You know, in the 
early 1980's, we took it upon our ourselves as an industry to 
develop best management practices for forest practices because 
we could see where--the direction that we were headed. And thus 
far, we've been able to do that voluntarily in this state, and 
I think have set a precedent for many states in the nation. In 
fact, I know we have. In working in my connections with the 
American Loggers Council over the entire nation, they 
oftentimes use the model that we developed here. And in the 
technology of the machinery that's come forward that enables us 
to be a much softer footprint on the ground and to remove trees 
in a directional fashion that do the least amount of harm to 
the residual stands. I think the strides that have been made 
are astronomical. And there's no question about that we can do 
a much better job today than we even could 10 years ago, let 
alone 30 years back.
    The Chairman. Mr. Mood, we had an opportunity to go through 
the mill this morning. And unfortunately, it looked a lot like 
the mills that I've got back home in that everything that was 
running through there was salvage timber. And that's, as you 
know, not a very reliable source of timber to keep a mill 
running.
    But I've had the opportunity over the last several years to 
fly over Montana in a small plane, to fly over most of the West 
in a small plane, and one of the striking things about it is, 
is that it's all covered with forests. And there are trees just 
about everywhere you fly in this part of the world.
    About 2 years ago, I was in New Zealand and had the 
opportunity to look at their livestock industry. And as part of 
their growing livestock industry, they were clear-cutting 
forests and planting grazing--planting grass to go in there. 
But the interesting part about it was is that they were loading 
those trees onto to ships and those ships were coming to the 
United States, and they were coming to California to run 
through one of our sawmills that is surrounded by national 
forests.
    How could it possibly be economical to ship trees from New 
Zealand, a raw product from New Zealand, to run in a sawmill in 
California that is surrounded by national forests?
    Mr. Mood. Well, that's a fascinating question. And I guess 
the answer is that if you can get the raw material for nothing, 
you can ship it quite a long ways. Or virtually, I think you 
can ship it quite a long ways, particularly on over-the-sea 
transportation, and still make it economically feasible.
    It's fascinating to me. You know, this country has wood 
products coming to it from four different directions. Canada, 
of course, is the major contributor. And I've forgotten, I've 
been away from those numbers for a long time, but I believe 
they're probably in the 35, 40 percent range of the wood 
products we use are coming from Canada. But interestingly 
enough, New Zealand, there is a lot of lumber coming to this 
country from New Zealand, a lot of from South America. And one 
of the most fascinating ones is the Russians are shipping 
timber from Russia to the Scandinavian countries where it's 
made into dimension lumber and it ends up on the East Coast of 
the United States.
    One of the problems that we have in this country is the way 
that we have competitive bidding for timber and are attempting 
to compete with Canadians, for instance, who have dedicated 
timber at a fixed price, which has nothing to do with the 
market. And, you know, we have to compete with a much higher 
timber base cost to begin with, than what the Canadians do. And 
that's why the Canadian imports always have a market, because 
they can sell it for quite a bit less and still come out. And I 
am familiar with the New Zealand timber that's coming into the 
West Coast. And again, they are--I suppose if you can ship it 
and buy it at a price and get it cheaper than you can in this 
country, the economics work.
    It seems to me rather odd that we're sitting on some of the 
most productive temperate forests in the world here in the 
Western United States and we were not able to tap into that 
resource, or haven't been for a number of years now, in order 
to fill our own markets, but--.
    The Chairman. Did you find it ironic that, you know, we're 
watching our forests burn and we have sawmills that are 
shutting down all over the country, all over the Western United 
States and our forests are burning down and we're importing 
logs from New Zealand? To me, there's something wrong with this 
picture.
    Mr. Mood. Well, I do find it ironic. And again, you know, 
the legal structure we have in this country as far as forest 
management and the hoops that the Forest Service has to jump 
through in order to put timber on the market, I think it led to 
a situation where, you know, there's a demand. And if you cause 
a void in the supplying of that demand, something will flow 
into that void to fill it. And we're seeing that happen in this 
country with imports from all four directions.
    The Chairman. But finally, I just want to ask you. I mean, 
we've talked about the forests and timber harvests and the 
sawmill, but the other end of that is the value added, the 
folks who actually take a piece of lumber and turn it into a 
product, whether it's window casings or moldings or what have 
you. What's happening with that end of the business? Are we 
seeing an increase in imports of those kind of products?
    Mr. Mood. Well, absolutely. There's a product that comes in 
from New Zealand called radiata pine, which is filling, again, 
the void that's been created by the inability of the 
manufacturers in this country to get into the ponderosa pine 
forests and to make the window moldings and that type of thing 
which comes from that raw material.
    Yeah, it is ironic that, you know, again, we have a demand 
in this country for a product. And I mentioned the number of 
homes that have been built in this country in the last 55 years 
for a very specific reason. You know, we are not out there in 
the forest and we're not producing lumber because we hate 
trees. We're doing it because there's a market for the product 
that we made.
    And I would argue that, again, the 90 million homes that 
have been built since the end of the Second World War is the 
reason that there is a need for wood products in this country. 
It's not anything perverse and it's not anything evil, it's 
just the fact of human life. You know, that 90 million homes 
represent probably the most comprehensive effort in the history 
of the world for a people of a country to house itself in a way 
that those people can afford to live in the house. And it would 
be nice if somehow or another we could figure out a way for 
that to continue.
    The Chairman. And I thank you. I thank both of you.
    Ms. Bordallo.
    Ms. Bordallo. Thank you, Mr. Chairman.
    I have a couple of questions, first to Senator Anderson. 
How do you personally feel about Montana taking advantage of 
the Federal stewardship contracting? Can you enlighten me on 
the way that this pilot program has been implemented in this 
state. And what changes would you recommend Congress make 
concerning this program or any other initiatives that you feel 
are important, including the categorical exclusions which you 
mentioned in your testimony? Do you have any suggestions to 
make in that area?
    Mr. Anderson. Yes. I think the Forest Stewardship Program 
is a pilot program, and I believe that it is proving itself to 
be very valuable. Of course, at this point, this juncture in 
time, anything would be of value. But the Forest Stewardship 
Program does need to expand, as I said in my testimony. It 
needs to expand to cover larger tracts of land. They can do the 
same thing that they're doing with the small programs, the 
pilot programs. And I just don't want to see it become of a 
restrictive nature to where it is just these tiny little 
programs that work well but don't accomplish the amount of 
tasks that we have before us to try to reduce fuel loads and 
protect communities and supply our industries.
    Ms. Bordallo. Uh-huh.
    Mr. Anderson. And the categorical exclusion, I think, 
definitely has a lot of merit, because I think when there is a 
catastrophe and we are faced which a large burn or a blowdown 
or any of these others, I think it should be against the law 
not to utilize that material to the best of its potential. We 
have--as Doug has said, the demand is certainly out there. And 
we're going, as a people, we still, our American dream is to 
own that home. And we're demanding that we get the material, 
and we'll get it from wherever we can get it, whether it's this 
country or outside of this country. And for us to not utilize 
that material when it's already been burned is just beyond 
comprehension.
    Ms. Bordallo. So, you feel, then, the program should be 
expanded?
    Mr. Anderson. I do.
    Ms. Bordallo. Thanks. Have you had ever made any 
recommendation through your state legislature, to the Congress, 
in a way of a resolution or any type of requests like that, as 
to your suggestions?
    Mr. Anderson. Not specifically dealing with categorical 
exclusions. We did have a couple of resolutions this session, I 
believe, of course, urging Congress to look further into the 
needs we have with our forests and our forest issues.
    Ms. Bordallo. There's one other question, too, I'd like to 
ask you, Senator Anderson. You've noted in your testimony that 
your logging business, your personal business once conducted 
about 80 percent of its business with the national forest 
system land. And, however, you also noted that now little of 
your business is actually on forest system land. How long can 
20 percent of Montana's forest land base support 80 percent of 
Montana's timber harvest?
    Mr. Anderson. Well, that's the problem we're getting into. 
And I noted in my testimony that our private lands are private 
timber lands. I think they're probably unquestionably being hit 
pretty hard, simply because our national forests have basically 
become off limits. And I was being very generous when I said 80 
percent because at one time we probably did 95 percent of our 
work on national forests, and they virtually have become off 
limits. And that's just shifted the burden onto the private 
lands. And how long can that last? I guess I wouldn't venture a 
guess as to how long. But I think we're seeing that come to 
fruition by the number of mills and manufacturing plants in the 
state that are being forced to close.
    Ms. Bordallo. Forced to close, uh-huh. So, you see that 
happening in the very near future, then? Or some action has to 
be taken?
    Mr. Anderson. Most definitely.
    Ms. Bordallo. Mr. Speaker, as a speaker of the Montana 
House and representing this very beautiful rural community, is 
it difficult to explain the challenges facing timber-dependent 
communities to your urban colleagues, say, in Billings and 
Great Falls? Are they aware of the situation?
    Mr. Mood. I think that the forest health issue, the plight 
of the sawmills in Montana--and, by the way, I think we're down 
to eight. I was a little stunned to hear that, but I know at 
one time there must have been 45 sawmills in Montana and there 
are eight producers of any size at all being left in the state.
    But, anyway, the other people in the state are well aware 
of the plight of forestry and the sawmill workers in the state.
    Ms. Bordallo. Are they sympathetic with the problems facing 
this community?
    Mr. Mood. Well, you know, it's a cross-section of the State 
of Montana or a cross-section of our society, just like it is 
intended to be in the House of Representatives. And I think 
that most people are becoming--are aware of what's happening on 
our national forests. There's a difference between those who 
think it's the right thing to have happen and those, like 
myself, who think that what's happened in the last 20 years is 
the wrong thing.
    And again, as Senator Anderson indicated, the national 
forest--and I'm not privy to these numbers anymore, having sold 
our interest in the mill 2 years ago--but I do know that in 
Pyramid, we probably did 90 percent of the harvesting within a 
50-mile radius of the sawmill 25 years ago. And I know that 
just in recent years, the mill has had to go out as much as 300 
miles in order to get the raw material that it needs to fill 
the demand or keep the sawmill in production. And that the 
impact of that is also spread out from a 50-mile radius to a 
300-mile radius, and there's other ramifications of that.
    The local school, for instance--and I'm not sure of these 
numbers--but I think they've lost about 40 students in the last 
5 years. Well, it's a direct result of the fact that the 
economic impact of the major employer, the local employer is 
being spread out over a 300-mile radius as opposed to a 50-mile 
radius.
    Ms. Bordallo. So, in your opinion, your colleagues are 
sympathetic to the plight?
    Mr. Mood. Yeah. The colleagues that I have in the House of 
Representatives are well aware of what's happening in the 
forest products industry. There are some who think it's the 
right thing to have happen, and there are others who say --who 
agree with me that it's the wrong thing to be happening.
    Ms. Bordallo. Thank you, very much. Thank you, Mr. 
Chairman.
    The Chairman. Mr. Rehberg.
    Mr. Rehberg. Thank you, Mr. Chairman.
    Being a former colleague of yours in the State Legislature, 
we both, or all know that budgets never go down at the State 
level, they either stay the same or creep up.
    I guess the follow-up question would be, do your colleagues 
recognize the fact that when timber production is not paying 
its share of the former budget that was built upon timber 
harvesting, that somebody else is going to have to make up the 
difference?
    Mr. Mood. I would say that a certain percentage of them are 
aware of that. I'm not going to get these numbers exactly 
right, but it's a good indication. At one time, the natural 
resource industries in the State of Montana paid, I believe, 42 
percent of the taxes, the property taxes that came into the 
state. That number is down now in the 7 or 8 percent range. 
Well, somebody is making up that difference. You know, if 
property taxes are going up, there's a reason for it because a 
major value to the State, both tax value and economic value, is 
being deteriorated because of a lack of activity in the 
forests.
    Mr. Rehberg. Speaker Mood, could I ask you the question, 
can eight sawmills--if the light suddenly turns on in 
Washington and our policymakers recognize the fact that we need 
a healthy forest program that's going to necessitate additional 
thinning and harvesting throughout the West, but in Montana can 
eight mills handle the amount of timber necessary to adequately 
manage our forests for the Healthy Forest Initiative?
    Mr. Mood. I would expect the answer to that question is no. 
And there are states, and I was reading about Arizona that has 
no sawmills left. In Montana, I'm not sure who would be willing 
to invest more money to build a sawmill in Montana, but I doubt 
there's, you know, more than about three or four people in the 
whole world that think that's a good idea.
    Mr. Rehberg. That was going to be my follow-up question. 
Knowing that you sold out within the last 2 years, would you, 
as a fairly sharp businessman, take the chance of investing 
your dollars to build a plant?
    Mr. Mood. I would not.
    Mr. Rehberg.  You would not.
    Mr. Anderson, at what point does it become less than 
economic for you to transport logs to eight mills? I mean, is 
it getting to that point where it's so much more difficult 
because you're having to go farther and farther away? Is there 
a number, or is it just happening?
    Mr. Anderson. Well, as Speaker Mood eluded to, it's just a 
supply and demand situation. And the further out you get, then 
naturally the cheaper you have to obtain that product; 
otherwise, it definitely does become not economically feasible.
    We're, you know, in the same situation or scenario he spoke 
of. We probably used to stay within a 50-, 60-mile radius of 
our mill that we were delivering to. And now, it's not uncommon 
to get out 100, 150 and at times 300 miles. Last year, for 
instance, one of our salvations for the mill there in Deer 
Lodge was unfortunately the burn up on the Blackfoot 
Reservation, and they chose to go in there and utilize that 
material. And that was a big boost for the sawmill there in 
Deer Lodge, and it was 300 miles one way. But we were able to 
utilize that product, they were able to recap the value of it, 
and it was a win-win for all of us.
    Mr. Rehberg. Speaker Mood, one final question. And that is, 
oftentimes, you hear the opponents talk about below cost sales. 
And I guess my question to you is, being the mill owner, what 
percentage, if you remember, was paperwork costs added on top 
of reviews and the various regulations at the Federal level? 
Were they below cost sales because you wanted to maximize your 
profits and you just have to be a smarter bidder? Or were they 
below cost sales because the costs of the Federal Government's 
regulatory environment was added in and it became less than 
profitable for the Federal Government to want to harvest?
    Mr. Mood. There's enough competition for timber that timber 
is never bought cheap in this day and age. They're below cost 
because the preparatory paperwork is expensive and that goes 
into the cost of the sale. And it's ironic to me that the very 
people who are causing the expense of paperwork to the Forest 
Service, then argue that they shouldn't be putting it up 
because it's below costs. So, I mean, it's kind of--you know, 
they're causing it on one hand and then arguing that it's the 
reason why they shouldn't be putting timber up. But it's a 
terrible irony and, frankly, you have to laugh or you want to 
cry.
    Mr. Rehberg. Thank you, Mr. Chairman.
    The Chairman. Well, thank you. I want to thank both of you 
gentleman for your testimony. It was extremely interesting to 
hear your perspective on it, both as elected officials here in 
Montana as well as your experience in the real world. So, thank 
you very much for your testimony.
    Mr. Mood. I want to thank you for coming to Seeley Lake.
    The Chairman. Well, thank you.
    I'm going to invite up our third panel, but before you come 
up here, the Committee is going to take about a 5-minute break. 
I'm going to give our lady an opportunity to rest for a second 
here. But if you could start making your way up to the front, 
we're going to take a break for about 5 minutes.
    [Whereupon, the hearing was in recess at 11:28 p.m., and 
subsequently reconvened at 11:35 a.m.]
    The Chairman. Now that I've got you sitting down, if I 
could have you stand up.
    [Witnesses sworn in.]
    The Chairman. Thank you. Let the record show that all 
answered in the affirmative.
    Our third panel is Steve Kelly, Bob Harrington, Ann Dahl, 
Kim Liles and Gordy Sanders. And we're going to start with Mr. 
Kelly.

    STATEMENT OF STEVE KELLY, MEMBER OF BOARD OF DIRECTORS, 
                    ALLIANCE FOR THE ROCKIES

    Mr. Kelly. Thank you, Chairman Pombo and Representative 
Rehberg and Representative Bordallo. And I'd really like to 
thank the staff. You know, we had to make quite a few calls to 
get this all together, and they really did a great job. And I'd 
like to welcome you all to Montana. You came at the very best 
part of the year, so I hope you enjoy yourselves if you get 
some time off.
    My name is Steve Kelly, I'm here representing today the 
Alliance for the Wild Rockies. We are a network of small groups 
and small businesses and individual members, and our focus is 
bioregional. We're basically operating in the five-state 
Northern Rockies Regions. So, my comments today will address 
specifically the title or the topic of Montana's problems, but 
I would hope that we could consider that those challenges and 
problems and solutions could be looked at over the Northern 
Rockies Region. It's all mountainous. We're pretty good at 
growing some things and not other things. California grows 
great artichokes, and we grow world-class trout fishing, 
grizzly bears, elk, caribou, things that people around the 
world just don't have anymore. And it's one of the things I'd 
like to try to focus on during my few minutes is that we take a 
broader, more holistic look at the forests.
    We have heard a tremendous amount of discussion and opinion 
about the trees. And there are some highly respected scientists 
that have, since I can't remember when, have tried to refocus 
our attention to this holistic view of the forest, the forest 
being things from microrisual fungi to huckleberries to the 
grizzlies and to the trout. And, so, really beyond the trees. 
The trees are obviously what we think of and look at and it's 
the metaphor, but it is not an adequate proxy for forests. So, 
I think the more we focus on trees and what are we going to do 
with the trees, we sort of lose site of this big picture. And 
again, the bigger picture of the forest as a bioregion, 
something that extends beyond state boundaries. This isn't just 
a Montana problem, this isn't just a Seeley Lake problem or a 
Swan Valley problem, but it does extend to these broader 
ecosystems.
    I think that we need to also look at the history. The 
greatest challenges facing our forests today are those same 
great debates that began before there was a Forest Service, 
with National Forest Reserves being formed in 1891. So, in a 
lot of ways, this debate is over how best to approach 
management really goes back to the great debates between 
Gifford Pinchot and John Muir who really started this whole 
idea of should we protect the forests for the future, should we 
view it and manage it as a farm or a commodity production 
landscape. And again, I think the testimony earlier today we 
have seen that there's obviously disagreement about this 
fundamental argument that perpetuated itself through the 
Organic Act, through the Multiple Use Sustained Yield Act of 
1960.
    And today, we are still governed by the laws of Congress 
that created the National Forest Management Act. And that act 
and the statutory requirements, again require us to look at the 
forest beyond the trees, look at the wildlife, look at all the 
values. And, so, when we take a small view and a short-term 
view, we lose site of where the money is spent, we lose sight 
of the impact of our priority to log the forest, to produce the 
commodity, and this, in turn, I think, creates a lot of the 
controversy. A lot of the appeals are generated out of this 
basic fundamental difference about how we all view the forest.
    I have attached a couple of GAO reports I hope you'll take 
note of, just to really highlight some of the long-standing 
performance accountability problems. The Forest Service still 
does not have a financial accounting system that any of us can 
understand, and I think we need to get that. That's something 
Congress can do for us, make the Forest Service accountable for 
where it spends its money in a way that we can all understand.
    The other thing is we need to find out if we're going to 
produce commodities--and I'm suggesting that we're going to 
continue to approach this for a long time to come--we need to 
know what the yield is. And, so, if we're going to be an 
agricultural producer, can we please find out what the yield 
is. There are uneconomical parts of the world, this happens to 
be one of them. It is a short growing season. We just got out 
of the period where a frost-free growing season just started 
for us. It's going to end Labor Day. So, competing with the 
rest of the world that has longer growing seasons, as an 
agricultural person in agriculture, you know, that's important.
    And I'll reserve my time for questions. I want to thank you 
all for giving me the opportunity. I have one criticism. If we 
can have public participation before the bill passes next time, 
it would be much more meaningful. Thank you.
    [The prepared statement of Mr. Kelly follows:]

 Statement of Steve Kelly, Member, Board of Directors Alliance for the 
                           Wild Rockies, Inc.

    Chairman Pombo, Representative Rehberg, and members of the 
Committee, my name is Steve Kelly for the record. Thank you for the 
opportunity to submit written testimony on behalf of the Alliance for 
the Wild Rockies. The Alliance is a bioregional grassroots network 
based in Missoula, Montana comprised of hundreds of small businesses 
and conservation organizations and thousands of individual members 
working together to maximize support for environmental protection and 
restoration of the Northern Rockies bioregion. Our area of concern 
includes the mountainous regions of Montana, Idaho, Wyoming, and 
Eastern Oregon and Washington. Our collective mission is to secure the 
ecological integrity of the bioregion through citizen empowerment and 
the application of conservation biology, sustainable economic models, 
and environmental law.
    These world-class forested landscapes are unique because they 
contain some of the largest intact forests in the earth's temperate 
zones. These forest ecosystems are still home to all the native plant 
and animal species that were here at the time of the Lewis and Clark 
Expedition 200 years ago. Free-roaming populations of grizzly bears, 
gray wolves, bison, woodland caribou, wolverine, mountain goats, 
anadromous salmon, bull trout and cutthroat trout are found here in 
``America's Serengeti.'' Recreational opportunities abound in popular 
destinations like Glacier and Yellowstone National Parks and on the 
national forest system lands that provide critical biological linkages 
between these protected national treasures. Our public forests also 
provide us with clean water, wildlife, spectacular scenery, and 
unmatched opportunities for hunting, fishing hiking and recreation. 
These public values represent the foundation of our quality of life. It 
is this generation's challenge, and our obligation I believe, to 
protect and restore our natural heritage for future generations.
    We must never lose sight of why national forest system lands were 
created in the first place, and why working Americans from all 50 
states have willingly invested their hard-earned tax dollars in public 
forests for over a century. These are America's public forests.
    The greatest challenges facing our National Forests can be traced 
back to the Creative Act, which established the system of National 
Forest Reserves in 1891. The disagreement over how to interpret the Act 
is memorialized in the philosophy and teachings of two historical 
conservation greats, John Muir and Gifford Pinchot. Muir sided with 
Secretary of the Interior John Noble's interpretation of the Act as 
primarily preservationist in nature, while Pinchot sided with the 
Forestry Division Chief, Bernard Fernow, who held that the government 
should prioritize timber management and productivity in the German 
tradition of forestry, which viewed the forest as a farm, producing 
commodities for human consumption.
    In 1897 Congress passed the ``Organic Act,'' enacting strict laws 
governing timber harvest on the Forest Preserves. With the blessing of 
President Theodore Roosevelt and Congress in 1905, Pinchot seized 
control of Forest Preserves, shifting jurisdiction out of Interior into 
Agriculture where they became known as National Forests. In his first 
two years as Chief, Pinchot passionately pursued his utilitarian/
development agenda, which increased timber sales by 1000 percent. This 
great controversy is about values, and is fundamental to our 
understanding of today's disagreement between those primarily concerned 
for the integrity and beauty of the biotic community, and those who 
rationalize the exploitation of nature for human consumption.
    In 1976, Congress passed the National Forest Management Act (NFMA), 
the first legislation to enforce substantive statutory restrictions on 
the Forest Service. The Act was a response by Congress to restore 
public faith and trust in Forest Service management, a crisis in 
confidence caused by an insensitivity to the public's growing concern 
over the expenditure of public funds and the environmental destruction 
caused by the excessive clear-cutting and road-building of our public 
forests. The debate rages on.
    The Bush Administration's attitude and philosophy toward public 
forests represents a radical departure from the intent of NFMA to 
restore the ``rule of reason'' as envisioned by the Committee of 
Scientists. Apparently determined to deregulate and privatize our 
national forests, the White House appointed a former timber lobbyist 
assistant undersecretary of agriculture in charge of managing national 
forests. Today, any reasonable hope of striking a better balance 
between subsidized extractive uses and respect for public values like 
water, wildlife and solitude seems remote at best.
    Congress has been all too willing to support the Administration's 
agenda, abandoning the long-standing practice of avoiding timber 
harvest where production costs exceed public benefits and where logging 
causes irreparable harm to fish and wildlife habitat, endangered 
species, clean water and healthy watersheds.
    According to two General Accounting Office (GAO) reports (GAO-03-
538, GAO-03-503, attached) issued in March, 2003, ``the Forest Service 
has made little real progress in resolving its long-standing 
performance accountability problems and, based on the status of its 
current efforts, remains years away from implementing a credible 
performance accountability system.'' In the meantime, all ten Montana 
national forests continue to lose money on their timber programs.
    Since the famous Yellowstone Fires of 1988, Western states have 
experienced big fire years in 1994, 1996, 2000 and in 2002. As the 
current drought persists, this string of impressive natural events will 
continue, with or without applying prescribed fire, thinning and other 
costly mechanical treatment methods.
    Big skies, big trucks, extreme weather conditions, and fire are all 
part of everyday life in the West. When conditions are right, fires 
will burn uncontrollably, even in logged areas, or subdivisions, with 
good road access. Despite our unflagging efforts to control nature, 
wildfire, like floods, tornadoes, and earthquakes, occur randomly. Even 
severe fire seasons do not constitute an emergency, but rather a normal 
fire sequence in a fire-prone ecosystem. Get used to it, wildfire B 
even the so-called ``catastrophic'' variety B is a natural, inevitable 
process.
    In reaction to nature's recurring disregard for human efforts to 
suppress fire, fire-fighting costs are on the rise. In 2002, the U.S. 
Forest Service alone spent a record $1.2 billion, a big jump up from 
the $256 million spent by all federal agencies in 1997. As Congress 
throws more money at the problem it helped create, there has been a 
corresponding rise in expectations of the constituency. But the 
intensity of the political controversy encircling government officials 
who must decide how best to manage our public lands appears to be doing 
more harm than good. Government is once again making promises it cannot 
possibly keep.
    To make matters worse, some politicians and special-interest groups 
have exploited public fear of wildfires to rush fire-related forest 
legislation through the U.S. House of Representatives to leverage 
expanded logging on public lands.
    For example, the ``Healthy Forests Restoration Act of 2003,'' under 
the guise of protecting rural communities from fire, deregulates 
logging in roadless areas and threatened and endangered species 
habitat, and gives the Secretary ``sole discretion'' to log old growth 
areas. The bill also permits the Forest Service to conduct logging 
without considering any alternatives, and creates legal exemptions for 
an unlimited number of projects (up to 1,000 acres each) for lands that 
agencies claim are at risk of insect infestation.
    The bill eliminates the statutory right of citizens to appeal 
Forest Service logging projects, and directs federal courts to rule 
with the Forest Service and BLM, regardless of which laws are violated, 
whenever agencies claim their actions will restore fire-adapted 
ecosystems. For all those hoping that Congress and President Bush will 
deliver a panacea, prepare for disappointment. In reality, more logging 
will not lessen the impact of wildfire or make them more controllable.
    Alterations to the home and vegetation within 200 feet can 
effectively reduce home losses. We must focus our attention on 
preventative actions within this zone of 200 feet, commonly referred to 
as the wild land/urban interface. People who choose to reside in the 
wild land/urban interface must take responsibility for reducing the 
chance their house or cabin will burn down. It is equally important to 
accept the fact that when burning conditions are right, no home is 
totally safe.
    Using science as our guide, the only logging that makes sense is 
very selective, and located within the wild land/urban interface. There 
is little scientific evidence to show that thinning will prevent fires 
in drought years. Many scientists caution that improper thinning could 
damage ecosystems and actually make forests more vulnerable to fire. 
Cumulatively, our public forests have not recovered from prior abuses, 
which have dried out entire ecosystems.
    The decision to spend billions of tax dollars annually to log, thin 
and burn public wild lands should be based on solid science, not on 
pork-barrel politics. At an estimated average cost of more than $1,600 
per acre B a cost that far exceeds the commercial value of most forests 
in the Northern Rockies B President Bush's plan to expedite Forest 
Service thinning projects has already squandered more than $400 million 
in the last two years.
    Roads and logging have increased the likelihood of wildfire by 2 
times and the likelihood of human-caused fire by 4 times when compared 
to unroaded areas. Right here in the Swan Valley there are 20% more 
road miles than stream miles (1,729 roads/1,437 streams), a major cause 
of sediment pollution. Thinning at a landscape level is an experiment 
with one surefire outcome: greater dependence on federal assistance and 
bigger federal agency budgets B that's money over and above the $7 
billion Montana received in federal aid last year.
    The last thing we need is more widespread logging on public lands, 
bigger logging subsidies and a bigger federal bureaucracy. Instead, we 
need to expand our knowledge of forest function and wildfire, and fight 
against self-serving politicians and lobbyists who hype the fear of 
wildfire as a means to achieve political ends and obtain quick cash.
    We need a better forest plan, one that prioritizes on-the-ground 
actions in the wildland/urban interface, spending increasingly scarce 
tax dollars wisely. By moving proactively, homeowners can improve the 
odds of home survival. Restoring forests and watersheds will require 
removing roads, not the trees. Once this is accomplished, we can use 
science and education in a similar fashion to find the common ground 
necessary to successfully tackle more complex public forest problems in 
the future.
    In the backcountry, congressional protection of national forest 
system lands is the most cost-effective method of insuring that future 
generations have special public places to fish and hunt. And the wisest 
thing we could do to spur economic prosperity is to protect our 
forests, restore water quality and respect our quality of life.
    Thank you for this opportunity to testify.
                                 ______
                                 
    [An attachment to Mr. Kelly's statement, ``Highlights of 
GAO-03-503,'' has been retained in the Committee's official 
files. The report is available at www.gao.gov/cgi-bin/
getrpt?GAO-03-503.]

    The Chairman. Well, thank you. And just to respond to your 
comment, I believe this is probably about the 30th, at least 
the 30th hearing that we've had on that bill, the vast majority 
of those were before the bill passed, so--.
    Mr. Harrington.

    STATEMENT OF BOB HARRINGTON, FORESTER, STATE OF MONTANA

    Mr. Harrington. Good morning, Chairman Pombo, Congressman 
Rehberg and Congresswoman Bordallo.
    Thank you for coming out here. I appreciate the opportunity 
to speak with you this morning. I'm Bob Harrington, I'm the 
Montana State Forester and I'm also Forestry Division 
Administrator for the Montana Department of Natural Resources 
and Conservation.
    Our department manages about, a little over five million 
acres of State trust land in the State of Montana. Of that, 
about 700,000 acres of that is forested. We produce about 42 
million board feet of logs for sale every year with the intent 
of generating revenue for the trust beneficiaries, primarily K-
12 schools and the university system. As Forestry Division 
Administrator, I am also responsible for the fire protection on 
five million acres of State and private land in Western 
Montana, as well as, by extension through our partnerships with 
the counties, the remaining 45 million acres of State and 
private land throughout Montana. We also work fairly closely 
with the timber industry to monitor forest practices and 
several other things.
    I'd like to get right into some of what I believe are the 
critical points that are being debated right now and should be 
considered as you go forward with considering approval of 
legislation to address the forest health issue.
    First of all, I believe that thinning a few trees around 
forested subdivision communities will not guarantee the 
survival of our communities at risk. When combined with drought 
conditions, the current amount of fuel on our national forests 
contributes to fire intensities that can overwhelm firefighters 
than even the most extensive community fuel reduction projects.
    Restricting forest management projects to a buffer area 
around homes will not address the broader forest health problem 
on national forest lands and the threats from insects, disease 
and fire to forested watersheds and productive timber lands. 
The pending revision of forest plans on Montana's ten national 
forests could cost up to $100 million. Streamlining this 
process would make valuable staff and financial resources 
available to implement more forest health projects on the 
ground.
    I believe a viable wood products and logging industry is 
important to the State of Montana and a critical component of 
implementing forest health improvement projects. As the states 
of Colorado, Arizona and New Mexico have learned, the ability 
to implement projects is severely limited, if not eliminated 
altogether, if the infrastructure is not in place. We cannot 
complete the needed fuel treatments with noncommercial thinning 
alone. Commercial forest products can and should be harvested 
from our national forests and can help offset the high cost of 
forest health restoration work that is needed.
    Although most agree that forest fuels adjacent to our 
communities should be treated, the distance from structures 
that fuel treatment should occur is still debated. Some believe 
the Forest Service should continue identifying and treating 
high-risk areas away from our cities and towns, while others 
believe all commercial logging on Federal forests should end, 
and they file appeals and lawsuits toward that end.
    Consequently, science-based forest management proposals on 
national forests that have been developed in collaboration with 
resource specialists, affected stakeholders and the general 
public continue to be delayed and derailed. The internal 
appeals process and court challenges have been used to handcuff 
agency professionals and to prevent good projects from moving 
forward.
    Nowhere is this more evident than in the Bitterroot Valley 
south of Missoula, where approximately 350,000 acres burned in 
the summer of 2000. During those fires, more than 15,000 acres 
of the Sula State Forest burned. To date, our department has 
salvaged over 27 million board feet of dead timber on over 
6,000 acres, generated $6 million for trust beneficiaries and 
forest improvement, and completed numerous fire rehabilitation 
projects on burned trust lands. The majority of this harvest 
occurred within 6 months of the fire, allowing us to capture 
maximum value from purchasers.
    The Bitterroot National Forest has had much more 
difficulty, thus far salvaging only approximately 20 million 
board feet of the estimated 1 billion board feet of Federal 
timber that burned in the summer of 2000. Delay in implementing 
harvest has seriously reduced the value received to about 10 
percent of the value that our department received for our 
timber. The success of the DNRC salvage operation on trust 
lands certainly represents a tremendous effort by our staff and 
the State Board of Land Commissioners. However, I do not 
believe that the problems implementing salvage projects on 
adjacent national forest land represent a lack of commitment or 
competence on the part of national forest staff. Rather, it 
represents the difference in administrative frameworks each 
agency operates within and how cumbersome it is to implement 
projects on the national forest.
    Clearly, Congress should enact legislation that expedites 
the implementation of collaboratively planned projects, not 
only adjacent to communities at risk but wherever forest health 
problems and priorities exist. I applaud the passage of the 
Healthy Forest Protection Act by the House of Representatives 
and encourage the Senate to pass a bill with similar intent. 
The 10-year comprehensive strategy that's been endorsed by the 
Western Governors Association and numerous other partners 
provides a good framework for negotiating the final version of 
the legislation.
    I am confident that efforts such as this field hearing will 
help us move forward in restoring the health of our forests, 
protection of our watersheds, and to maintain the economic 
health of Montana's rural communities. I encourage you to 
continue your work toward passage of legislation that 
reinvigorates the mission and productivity of the U.S. Forest 
Service. Thank you.
    [The prepared statement of Mr. Harrington follows:]

 Statement of Bob Harrington, Montana State Forester, Missoula, Montana

    Good morning Mr. Chairman and members of the committee. My name is 
Bob Harrington, Montana State Forester and Forestry Division 
Administrator of the Montana Department of Natural Resources and 
Conservation. I appreciate the opportunity to speak with you on this 
subject, and am pleased you have chosen Seeley Lake for this field 
hearing.
    Americans have had the great luxury to debate at length over 
management strategies to improve the health of our national forests. 
Opinions on how that should be accomplished are as diverse as the 
citizens of this country. One opinion is that accelerated timber 
harvesting alone would address the forest health problems on federal 
lands. Others advocate a policy that would prohibit proactive forest 
management and allow fire, insects, and disease to manage the forests 
instead. Somewhere in between these extremes, the embattled managers of 
Montana's national forests are trying to implement policy, and get 
things done on the ground.
    There are many critical points you should consider as you explore 
legislative solutions for the forest health problem. I would like to 
focus on a few of them:
    <bullet> Thinning a few trees around forested subdivisions and 
communities will not guarantee the survival of our communities at risk. 
When combined with drought conditions, the current amount of fuel on 
our national forests contributes to fire intensities that can overwhelm 
firefighters and the even the most extensive community fuel reduction 
projects.
    <bullet> Restricting forest management projects to a buffer area 
around homes will not address the broader forest health problem on 
national forest lands, and the threats from insects, disease, and fire 
to forested watersheds and productive timberlands.
    <bullet> Timber harvest on national forests will not prevent 
fires, but will decrease the intensity of fires when they do occur--
allowing safer and more efficient fire suppression tactics. It will 
also not eliminate insect and disease outbreaks, but it will lessen the 
impact when they occur.
    <bullet> Historic forest stand types and their relationship to 
fire were as diverse as the plants and animals found in them: some 
forest types experienced low-intensity fires every 10-20 years, others 
burned only once every 100-200 years, with many separate regimes in 
between. Forest management projects designed to reduce fuels, improve 
forest health, and mimic natural processes need to be designed 
accordingly.
    <bullet> The appeals process for project implementation leads to 
project planning costs 2-3 times as much as usual, and consumes 
valuable staff time that could better be spent on project 
implementation. The US Forest Service is the only federal agency with 
the NEPA appeals process codified in statute. Legislation is needed to 
give the agency more flexibility in managing the appeals process, 
similar to the BLM and other federal agencies.
    <bullet> Public involvement in project planning is critical--- but 
such involvement must be collaborative by all parties, and conducted in 
good faith. Recent changes to the categorical exclusion (CE) rules will 
help streamline the appeals process that has been abused for too long. 
Congress should support changes such as these, and facilitate 
additional CE protection for all forest management projects developed 
in a collaborative manner with stakeholders and the general public.
    <bullet> The pending revision of forest plans on Montana's nine 
national forests could cost up to $100 million. Streamlining this 
process would make valuable staff and financial resources available to 
implement more forest health projects on the ground.
    <bullet> A viable wood products and logging industry is important 
to the state of Montana, and a critical component of implementing 
forest health improvement projects. As the states of Colorado, Arizona, 
and New Mexico have experienced, the ability to implement projects is 
severely limited - if not eliminated altogether - if the infrastructure 
is not in place. We cannot complete the needed fuel treatments with 
non-commercial thinning alone. Commercial forest products can and 
should be harvested from our national forests, and can help offset the 
high costs of the forest health restoration work that is needed.
    Although most agree that forest fuels adjacent to our communities 
should be treated, the distance from structures that fuel treatment 
should occur is still debated. Some believe the Forest Service should 
continue identifying and treating high-risk areas away from our cities 
and towns, while others believe all commercial logging on federal 
forests should end - and file appeals and lawsuits toward that end.
    Consequently, science based forest management proposals on national 
forests that have been developed in collaboration with resource 
specialists, affected stakeholders, and the general public continue to 
be delayed and derailed. The internal appeals process and court 
challenges have been used to handcuff agency professionals, and to 
prevent good projects from moving forward.
    Nowhere is this more evident than in the Bitterroot Valley south of 
Missoula, where approximately 350,000 acres burned in the summer of 
2000. During those fires, more than 15,000 acres of the Sula State 
Forest burned. To date, DNRC had salvaged over 27 million board feet of 
dead timber on over 6,000 acres, generated $6 million for trust 
beneficiaries and forest improvement, and completed numerous fire 
rehabilitation projects on burned trust lands. The majority of this 
harvest occurred within six months of the fire, allowing us to capture 
maximum value from purchasers.
    Prior to the fires of 2000, the Sula State Forest had been managed 
for timber production, including several recently completed sales. In 
general, certain harvested areas on state and adjacent private land 
reduced fire behavior, and prevented additional mortality to standing 
trees. For various reasons, this pattern was not universal - some 
harvested areas burned intensely, and other unharvested areas burned 
with mixed severity. I have attached a summary of fire behavior on the 
Sula Forest by Dr. Peter Kolb, MSU Extension Forestry Specialist for 
further consideration by the committee.
    Timber salvage areas on the Sula Forest experienced significantly 
less erosion and debris flows than on adjacent lands where salvage 
logging had not occurred. Although variable weather patterns may have 
contributed to this result, we believe the logging activity and woody 
debris left behind prevented significant soil movement within the 
watershed.
    The Bitterroot National Forest has had much more difficulty, thus 
far salvaging only approximately 20 million board feet of the estimated 
one billion board feet of federal timber that burned in 2000. Delay in 
implementing harvest has seriously reduced the value received to about 
10% of the value received by DNRC for its timber. The success of the 
DNRC salvage operation on trust lands represents a tremendous effort by 
our staff and the State Board of Land Commissioners. However, I do not 
believe the problems implementing salvage projects on adjacent national 
forest land represent a lack of commitment or competence of Forest 
Service staff. Rather, it represents the difference in administrative 
frameworks each agency operates within, and how cumbersome it is to 
implement projects on the national forests.
    DNRC was fortunate to have the general support of Bitterroot 
residents, the State Land Board, and experienced no lawsuits over our 
salvage timber sales. In contrast, even after an open and collaborative 
planning process for its salvage sales, Bitterroot Forest staff has 
been burdened by appeals, lawsuits, negotiated settlements, and 
continued scrutiny from entities opposed to all logging on federal 
lands.
    Whether it is the salvage of fire-killed timber on the Lolo 
National Forest, or fuel reduction projects such as the Clancy-
Unionville project on the Helena National Forest, projects designed to 
improve the health of the forest and associated resources continue to 
be delayed or blocked altogether. While this gridlock continues, we 
continue to experience the following:
    <bullet> Our national forests continue to be subjected to 
extensive losses from fire, insects, and disease;
    <bullet> Timber-dependent workers and communities continue to lose 
jobs and economic sustainability;
    <bullet> Local, state, and federal firefighters continue to be 
exposed to extreme fire behavior, threatening lives and costing 
billions of dollars.
    We know that fire, insects, and disease are merely symptoms of a 
greater problem: the loss of the historical diversity in forest 
conditions that greeted Lewis and Clark as they passed through this 
region nearly 200 years ago. If our nation's forests are to adapt to 
the predicted increase in the atmosphere's temperature and associated 
weather extremes, we must continue to restore the mosaic of timber 
types once present on the landscape.
    Clearly, Congress should enact legislation that expedites the 
implementation of collaboratively planned projects, not only adjacent 
to communities at risk, but wherever forest health problems and 
priorities exist. I applaud the passage of the Healthy Forest 
Protection Act by the House of Representatives, and encourage the 
Senate to pass a bill with similar intent. The Western Governors 
Association's (WGA) 10-year comprehensive strategy establishes a good 
framework for negotiating the final version of the legislation.
    I am confident that efforts such as this field hearing will help 
move us toward restoring the health of our forests, protection of our 
watersheds, and maintain the economic health of Montana's rural 
communities. I encourage you to continue to work toward passage of 
legislation that reinvigorates the mission and productivity of the U.S. 
Forest Service.
    [An attachment to Mr. Harrington's statement follows:]

              Forest Management and Wildfire Observations

    Peter Kolb (PhD) MSU Extension Forestry Specialist, School of 
Forestry Assistant Professor of Forest Ecology
Sula State Forest
    The Sula state forest burned as part of the wildfires that burned 
across the Bitterroot Valley during 2000. Multiple ignitions coupled 
with drought, hot weather and extremely low fuel moistures led to 
uncontrollable wildfires across much of Montana and Idaho. This period 
was also marked with periodic high winds, most noted on what was called 
``Black Sunday'' when wind gust well over 40 miles per hour caused 
erratic and dangerous wildfire spread. News footage of the fire camp in 
Ross Hole being overrun by fire made the national evening broadcasts. 
The fire camp was located in the broad bottom of Ross hole with mowed 
meadowlands and croplands surrounding the camp for at least + mile in 
either direction, and lies in the middle of the Sula State Forest.
Fire behavior--post fire review
    Per the request of the ranch manager of the Shiny Mountain Ranch, 
which is surrounded by the northern portion of the Sula State Forest, 
and with Chris Tootell, the then chief of DNRC Service Forestry, I 
visited the Sula forest in late August of 2000. I had been in contact 
with the Shiny Mountain Ranch the previous year regarding wildfire 
concerns in the surrounding forest. This prompted numerous additional 
site visits, tours, and subsequent research during the summer of 2001.
    We found that the Sula State Forest burned in a mosaic of fire 
intensities and severities. We were very interested in fire behavior, 
particularly around ``islands'' of green trees that survived across the 
landscape next to high intensity burn areas. To help analyze fire 
behavior I interviewed Mark Lewing, who was in charge of the fire 
suppression activities on the Sula and had kept a diary of events. I 
also brought Mick Harrington (PhD), lead fire behavior specialist from 
the Fire Sciences Lab USDA Forest Service out to the Sula State forest 
to examine and discuss theories that we had developed with regard to 
fire behavior.

Findings
    Mosaic patterns were affected by landscape features, fuel 
conditions, time of day, wind patterns, and past forest management. 
Wind direction and speed, as well as topographic features such as 
canyons that funneled heat, and steep slopes that exacerbated wind 
effects had an overriding and predictable impacts on fire intensities 
and severities. Steep slopes and narrow canyons almost always led to 
stand replacing run-away fire conditions. Under these circumstances, 
the only forested areas that did not burn intensely and severely where 
those that were surrounded by clearcuts, patch-cuts, and widely spaced 
uneven aged management units. On average, any clearcut that had 
regeneration younger than 30 years showed some resistance to carrying 
an active crown-fire, and in some cases stopped surface fires as well. 
Standard thinnings that left fairly dense forested stands with average 
between tree spacings of 15 feet or less appeared to be ineffective in 
modifying active crown fire behavior. Those areas of adjoining property 
where thinnings of 30 feet between trees were in place did have 
noticeable effects, causing active crown fires to drop to the ground.

The role of logging debris and coarse woody debris retention prior to 
        fire
    The Sula State Forest was of interest because in the year preceding 
the fires of 2000, the manager of the Shiny Mountain Ranch had called 
asking for help regarding woody debris disposal. Upon inquiry, it 
became evident that he was concerned about logging debris that had been 
placed back into forested conditions to satisfy Coarse Woody Debris 
retention policy. Approximately a decade a ago a general forestry 
practice was adopted that advocated the retention of significant 
amounts of logging debris for the purposes of nutrient cycling and 
wildlife habitat. This practice, sound in theory, did not take into 
full account the risks to wildfire hazard. Most wildfire hazard 
calculations are conducted using a standard bad day format ( 87 F, 17% 
relative humidity, and winds of 12 mph 20 ft above the soil surface) 
and fuel loading using the BEHAVE model. Under these circumstances the 
logging debris left probably was well within standards for slash hazard 
reduction guidelines. It is my contention that these calculations gave 
a false sense of security since the wildfires of 2000 where under 
significantly worse conditions (90+ F , 5% relative humidity, and winds 
over 30 mph). Based upon observations on the Sula State Forest, 
prompted by the Shiny Mountain Ranch, management areas that had a 
coarse woody debris retention management prescription tended to support 
lethal surface fires and were more prone to developing into crown 
fires. Coarse Woody Debris guidelines, therefore, need to be refined to 
take into account the probability of wildfires under extreme 
conditions.

Salvage logging
    Salvage logging on the Sula State Forest occurred within months of 
the wildfire occurrence. The ability to quickly respond to wildfire-
affected areas had multiple benefits. Wildfires leave an area with 
little vegetation and covered with highly erodable ash. Fire adapted 
plants can rapidly recolonize burned areas one to two years after an 
event and help stabilize soils. Logging prior to plant colonization 
does not disturb this vital process and may actually help by breaking 
up ash covered hydrophobic soils. Placement of logging debris on 
contours to create erosion barriers further reduces soil displacement. 
This practice is identical to the costly but proven post-fire 
rehabilitation treatment of ``contour felling''. Finally, the rapid 
extraction of fire-killed trees maximizes the economic value and 
utilization of this resource. The wood in fire killed as well as insect 
and disease-killed trees rapidly becomes unsuitable for most wood 
product purposes.

The landscape picture
    Critical landscape review of the Bitterroot fires, Nine-mile, 
Maudlow-Toston, Cave Gulch, Fridley, Moose Creek, and Cow Creek have 
shown similar patterns. Forested landscapes, that had previously well 
planned and implemented management practices that resulted in mosaic-
patches of different forest age classes and tree species had a lower 
probability of carrying a landscape encompassing active crown fire, 
even under severe fire conditions. Wildfires that developed into active 
crown fires appeared to gain momentum in areas that had uniform forest 
crown canopies and burn into large, contiguous stand replacing fires of 
the highest severity. These types of wildfires cannot be actively 
suppressed until the weather significantly changes or landscape level 
fuel treatments are encountered. Wildfires that developed into active 
crown fires in forests with diverse tree spacing and patches of tree 
age classes were more probable to burn in a mosaic of small patches of 
crown fires and non-lethal surface fires, with significantly less 
severe residual fire effects. According to fire suppression experts, 
the later scenario represents a higher successful suppression scenario, 
which is the goal of using management to reduce wildfire hazards.
                                 ______
                                 
    The Chairman. Thank you. Ms. Dahl.

     STATEMENT OF ANN DAHL, DIRECTOR, SWAN ECOSYSTEM CENTER

    Ms. Dahl. Thank you. I'm grateful to be here and I'm 
grateful you came to see us because as Chief Bosworth said, or 
as has been said today--I can't remember who said it now--it's 
very important that you come out and take a look. In fact, it 
was you, Denny, who said it. I appreciate the working junkets. 
You need to know exactly what's going on.
    I work for Swan Ecosystem Center in the Swan Valley, about 
25 miles north of here. Swan Ecosystem Center is an inclusive, 
nonprofit community group. We work in partnership with the 
Forest Service and many other partners on ecosystem management 
and education.
    Today, I want to tell you how our community is 
participating effectively in public and private land 
management, briefly describe our hopes for the Swan Valley for 
us, emphasize that all communities and ecosystems are different 
and that forests are in need of site specific management, and 
argue that both local experience-based knowledge and scientific 
data are needed in considering forest health planning.
    The Swan Valley lies between the Mission Mountains and the 
Swan Range. And the valley ecosystem is a source of clean air 
and water. It's a popular recreation area for many Montanans. 
The Swan Valley has the most significant system of wetlands and 
riparian areas in the region. This densely forested valley is 
home to grizzly bears, bull trout, many rare plants and about 
900 people who care deeply about the land. The valley is one of 
a few in the West where humans live successfully within a rich 
and intact ecosystem.
    This thing is falling (indicating the mic.) .
    The Swan Ecosystem Center has an office and visitor center 
in the U.S. Forest Service Condon Work Center. We sell maps and 
firewood permits, and we answer questions about trails and 
grizzly bears. We raise half the money for the backcountry 
rangers in the Mission Mountains and on the Swan Range. We have 
two demonstration forests on national forest land that help 
people understand the role of fire in the ecosystem and learn 
how to protect their homes from wildfire. We offer numerous 
educational programs with the Forest Service and other 
partners.
    Community members have written a landscape assessment of 
the Upper Swan Valley that combines scientific data and 
experience-based knowledge from local people. Public land 
managers bring technology that communities want and long-time 
residents retain knowledge of how the ecosystem has functioned 
and changed over time. Both are needed to assess forest 
conditions and develop appropriate management strategies.
    Our community-based landscape assessment is the foundation 
for a valley-wide conservation strategy that includes all 
ownerships. The valley is divided in a checkerboard pattern, 
with the Forest Service and Plum Creek Timberland managing most 
of the alternating squares. These checkerboard squares are 
visible from space. Recently harvested, Plum Creek lands are in 
young growth, while many of the Forest Service squares are now 
overcrowded and need management to reduce beetle infestations 
and unnatural fuel loading. With every other square mile 
recently logged, much of the national forest land is 
susceptible to wind throw, yet the Forest Service is unable to 
offer small timber sales to salvage excess blowdown before it 
loses economic value and exacerbates the insect and disease 
problem. Although such salvage sales would be small, they would 
be significant for local contractors and the Pyramid mill in 
Seeley Lake. If we're going to reduce fuels in the Swan Valley, 
it's essential to keep the local mills open to process the 
trees that are thinned.
    Plum Creek Timberlands owns about 80,000 acres in the Swan 
Valley, about half of the land that can be managed for timber 
production in the valley. Plum Creek has begun selling its 
timberlands, some for Forest Service acquisition and some for 
private residences. We have convened a stakeholders group made 
up of the Forest Service, other Federal and state agencies, 
county governments, land trust organizations, environmental 
groups and community members and Plum Creek, to develop a 
coordinated strategy for protecting Plum Creek lands.
    Working with the Trust for Public Land, about 5000 acres 
have been acquired for the Flathead National Forest since 1998 
using Land and Water Conservation funds. About 1200 acres will 
be acquired in 2003. And the stakeholders group has identified 
and prioritized an additional 8000 acres for the Forest Service 
in 2004 and beyond. We're also seeking Forest Legacy funds and 
Habitat Conservation Plan funds to ensure that sufficient land 
remains in the timber base, key habitats are protected and 
lands are available for appropriate public access.
    Swan Valley residents have donated 3000 acres of 
conservation easements on 22 privately owned parcels through 
the Montana Land Reliance, demonstrating a remarkable personal 
commitment to retaining the valley's rural and wild 
characteristics. The Nature Conservancy also holds some 
easements in the Swan Valley.
    A Swan Valley community Committee is meeting monthly to 
protect Plum Creek lands and develop a conservation strategy 
for managing local forests. Historically, the economy in the 
Swan Valley has been timber dependent. Managed responsibly, 
these forests could continue to supply products for the local 
mill and provide jobs for loggers, log truck drivers, mill 
workers, restoration foresters and outfitters long into the 
future. But if we're going to maintain an intact ecosystem and 
a rural way of life, the Swan Valley cannot withstand much more 
residential development. Far-flung development is the greatest 
threat to ecosystem integrity and our rural culture. It 
undermines the viability of the timber industry and the cost of 
services stresses many--or stresses county government.
    As part of the Swan Valley conservation strategy, we want 
to acquire Plum Creek land for a community forest to be managed 
for these core values that were identified by residents as most 
critical: Appropriate public access, a sustainable timber base 
and wildlife habitat. If properly organized, a community forest 
would help resolve the burden of checkerboard ownership 
mandated by Congress a century ago as part of the railroad land 
grant.
    A Swan Valley community forest would test the potential for 
appropriate local land management while including a broad range 
of national interests. We are not asking for local control. We 
want meaningful local participation by people who have intimate 
knowledge of the place. A community forest would allow citizens 
to maintain the rural and wild characteristics of the valley 
and provide a sustainable local economy. Swan Valley forests 
could be managed according to the specific needs of the local 
ecosystem. Management would mesh the knowledge of long-time 
residents with scientific data. It would be responsive and 
specific to the people and the place. Thank you.
    [The prepared statement of Ms. Dahl follows:]

   Statement of Anne Dahl, Executive Director, Swan Ecosystem Center

Purpose
    Welcome to our beautiful part of the world. I am Anne Dahl, and I 
work for Swan Ecosystem Center in the Swan Valley, about 25 miles north 
of here. Swan Ecosystem Center is an inclusive, nonprofit community 
group. We work in partnership with the Forest Service, and many other 
partners, on ecosystem management and education. I have four things I 
want to accomplish today. I want to:
    1. Tell you how our community is participating effectively in 
public and private land management.
    2. Briefly describe our hopes for Swan Valley forests.
    3. Emphasize that all communities and ecosystems are different and 
that forests are in need of site-specific management.
    4. Argue that both local experience-based knowledge and scientific 
data need to be considered in planning for forest health.

Swan Valley
    The Swan Valley lies between the Mission Mountains Wilderness and 
the Bob Marshall Wilderness. The valley ecosystem is a source of clean 
air and water and a popular recreation area for many Montanans. The 
Swan Valley has the most significant system of wetlands and riparian 
areas in the region. This densely forested valley is home to grizzly 
bears, bull trout, many rare plants and about 900 people who care 
deeply about the land. The valley is one of a few in the West where 
humans live successfully within a rich and intact ecosystem.
Swan Ecosystem Center and Flathead National Forest Partnership
    Through matching funds agreements with the Forest Service, Swan 
Ecosystem Center has an office and visitor center in the U.S. Forest 
Service Condon Work Center. We sell maps and firewood permits and we 
answer questions about trails and grizzly bears. We raise half the 
money for the backcountry rangers in the Mission Mountains Wilderness 
and the Swan Range, with its trails into the Bob Marshall Wilderness. 
We have two demonstration forests on national forest land that help 
people understand the role of fire in the ecosystem and learn how to 
protect their homes from wildfire. We offer numerous educational 
programs with the Forest Service and other partners.
    Community members have written a landscape assessment of the Upper 
Swan Valley that combines scientific data and experience-based 
knowledge from local people. Public land managers bring technology and 
scientific information communities want. Longtime residents retain 
knowledge of how the ecosystem has functioned and changed over time. 
Both are needed to assess forest conditions and develop appropriate 
management strategies.

Legacy of Checkerboard Ownership
    Our community-based landscape assessment is the foundation for a 
valley-wide conservation strategy that includes all ownerships. The 
valley is divided in a checkerboard pattern, with the Forest Service 
and Plum Creek Timberlands managing most of the alternate square-mile 
sections. The state of Montana manages a smaller portion of the valley 
checkerboard. These checkerboard squares are visible from space. 
Recently harvested, Plum Creek lands are in young growth, while many 
Forest Service squares are now overcrowded and need management to 
reduce beetle infestations and unnatural fuel loading. With every other 
square mile recently logged, much of the national forest land is 
susceptible to wind throw. Yet the Forest Service is unable to offer 
small timber sales to salvage excessive blow down before it loses 
economic value and exacerbates the insect and disease problem. Although 
such salvage sales would be small, they would be significant for local 
contractors and the Pyramid mill in Seeley Lake. If we're going to 
reduce fuels in the Swan Valley, it's essential to keep the local mills 
open to process trees that are thinned.

Divestment of Plum Creek Timberlands
    Plum Creek Timberlands owns about 80,000 acres in the Swan Valley, 
about half of the land that can be managed for timber production. Plum 
Creek has begun selling its timberlands, some for Forest Service 
acquisition and some for private residences. We have convened a 
stakeholders group made up of the Forest Service, other federal and 
state agencies, county governments, land trust organizations, 
environmental groups, community members, and Plum Creek to develop a 
coordinated strategy for protecting Plum Creek lands.

Coordinated Conservation Strategy
    Working with Trust for Public Land, about 5000 acres have been 
acquired for the Flathead National Forest since 1998 using Land and 
Water Conservation funds allocated by Congress. About 1200 acres will 
be acquired in 2003. And the stakeholders group has identified and 
prioritized an additional 8000 acres for Forest Service acquisition in 
2004 and beyond. We are also seeking Forest Legacy and Habitat 
Conservation Plan funds to ensure that sufficient land remains in the 
timber base, key habitats are protected, and lands are available for 
appropriate public access.
    Swan Valley residents have donated over 3000 acres of conservation 
easements on 22 privately owned parcels through the Montana Land 
Reliance, demonstrating a remarkable personal commitment to retaining 
the valley's rural and wild characteristics. The Nature Conservancy 
also holds easements in the Swan Valley.

Swan Valley Community Forest
    A Swan Valley community committee is meeting monthly to protect 
Plum Creek lands and develop a conservation strategy for managing local 
forests. Historically, the economy in the Swan Valley has been timber 
dependent. Managed responsibly, these forests could continue to supply 
products for the local mill and provide jobs for loggers, log truck 
drivers, mill workers, restoration foresters, and outfitters long into 
the future. But, if we are going to maintain an intact ecosystem and a 
rural way of life, the Swan Valley cannot withstand much more 
residential development. Far-flung development is the greatest threat 
to ecosystem integrity and our rural culture. It undermines the 
viability of the timber industry, and the cost of services stresses 
county governments.
    As part of the Swan Valley conservation strategy we want to acquire 
Plum Creek land for a community forest to be managed for these core 
values identified by residents as most critical: appropriate public 
access, a sustainable timber base, and wildlife habitat. If properly 
organized, a community forest could help resolve the burden of 
checkerboard ownership mandated by Congress a century ago as part of 
the railroad land grant.
    A Swan Valley community forest would test the potential for 
appropriate local land management, while including a broad range of 
national interests. We are not asking for local control. We want 
meaningful local participation by people who have intimate knowledge of 
the place. A community forest would allow citizens to maintain the 
rural and wild characteristics of the Swan Valley and provide a 
sustainable local economy. Swan Valley forests would be managed 
according to the specific needs of the local ecosystem. Management 
would mesh the knowledge of longtime residents with scientific data. It 
would be responsive, and specific, to the people and the place.
                                 ______
                                 
    The Chairman. Thank you.
    Mr. Liles.

   STATEMENT OF KIM LILES, SPECIAL PROJECTS DIRECTOR, ROCKY 
        MOUNTAIN REGION, PULP & PAPER RESOURCES COUNCIL

    Mr. Liles. Chairman Pombo, Representative Rehberg, 
Representative Bordallo, thank you for allowing me to be here 
today.
    For the record, my name is Kim Liles. I'm the Special 
Projects Director for the Rocky Mountain Region of the Pulp and 
Paperworkers Resource Council. I am also a shop steward for 
Hellgate Local 885 in Missoula, Montana. And I have been 
employed at Smurfit-Stone Container mill for 24 years as a 
paper maker. And I am very grateful for the opportunity you 
have given me to address this gathering of folks dedicated to 
the future of our national forests here in Montana and 
throughout this great nation. As a native Montanan employed in 
the forest products industry, I, like many Americans, am very 
concerned with the direction and management that our public 
lands has taken for the last decade or more. For too long, we 
have allowed politics rather than common sense and scientific 
data determine the way we have managed, or should I say 
mismanaged, our national forests.
    I always thought of our public lands and national forests 
to be much like a garden, which require tending and care, along 
with thoughtful planning and sound practices. And just as a 
garden requires nurturing, so do our national forests. They 
have become ticking time bombs just waiting for a spark to 
ignite a firestorm. We are also witnessing some of the most 
devastating bug infestations we have seen in recent history, 
also adding to the fuel loading in our forests.
    After having toured the Bitterroot burn area of 2000 with 
some colleagues of mine last summer, I came away even more 
disgusted and with a greater concern over where we are headed. 
Having seen the destruction of so much old growth timber, 
habitat devastation and landslides contributing to the 
degradation of streambeds and water quality, I wonder how 
anyone could claim this to be a prudent management policy. I do 
not understand why, when we have the ability, the technology 
and wherewithal, we don't get about the work of reclamation, 
replanting and utilize the destroyed timber to our benefit.
    I asked, since when did it become un-American and wrong to 
make a profit on lumber. If we are to believe the environmental 
extreme community--and I have to cite extreme, because 
obviously there are awesome environmental organizations out 
there, but if we are to believe the environmental extreme 
community, nobody should make a dime on our public lands on 
anything. Only they, it would appear, should benefit, through 
litigation and legal action, while at the same time good hard-
working people are put out of work as a result of their 
actions. I, as well as many of my co-workers, hold them 
responsible and accountable for many of the jobs--not all of 
them, many--we have lost in the timber industry here in Montana 
and the Western United States. They always talk about 
compromise, but as I have experienced and seen through the 
years, the only ones who must compromise are those of us who 
rely on our natural resources for a living and our survival. 
Many of these same folks who we are constantly battling with on 
these issues do not even reside in our area. They have no real 
liability in the matter. It is not their jobs that are at risk. 
Their only supposed liability that I can see is their claim of 
caring for the environment. And to that I would ask the 
question of these so-called environmentalists, if they are 
concerned about the health of our national forests and our 
environment, is the destruction of over seven and a half 
million acres of forest land, old growth timber and wildlife 
habitat, and the loss of 24 lives, as we saw happen in 2003, 
acceptable? Is this the way we should manage our forests? Is 
standing by and doing nothing the right thing to do?
    It is also, you know, disturbing to me, as we recently saw 
in Libby, Montana, over 345 people right in the heart of timber 
country lose their jobs in their sawmill because of the 
unavailability of timber brought about by appeals and legal 
maneuvering and philandering by others who believe they know 
what is best for us and the environment. And these are not just 
jobs I am speaking of but a way of life. Our families, our 
schools and whole communities pay the price as well.
    There is no doubt mistakes have been made in the past in 
managing our national forests, but we must leave the past 
behind us, as was said earlier, and look ahead. I am one of 
those who believe we can have both a healthy environment and 
vibrant economy and still utilize our most renewable national 
resource, which is timber. We must use common sense and be 
realistic in our expectations. And when we come to a consensus, 
we need to stick with our decisions and eliminate the last-
minute appeals and legal challenges after we have agreed. This 
happens all the time and further erodes our ability to meet the 
challenges that we face today. Honesty, integrity and common 
sense must be a part of the process just as much as science and 
the public review process. Ultimately, the health of all our 
public lands lies in the balance. How we address this issue 
will most assuredly determine our ability to deal with other 
issues that we face in the future.
    But we've already seen the devastating the results of 
allowing politics, emotional rhetoric and radical agendas to 
dominate the discussion. I can only hope we allow common sense 
and credible science to be our guide now. The tremendous level 
of frustration I have experienced in talking with some of our 
forest personnel here in Montana, our regional director Brad 
Powell, as well as Chief Bosworth and some of his folks in 
Washington, D.C., is disheartening. It is time we allowed our 
professional land managers to do their jobs. It is also time we 
did what is right for our forests, our economy and our 
community. All I would like to see is a balance in this issue 
to take us into the future, forgetting the mistakes of the past 
and moving on in diligence. We have no more time to waste. Our 
forests are dying and burning up before our very eyes. We all 
share the blame for what we are now witnessing. So, let's get 
on with the business of properly managing what we do have so we 
will have it there for the future. And I thank you.
    [The prepared statement of Mr. Liles follows:]

   Statement of Kim Liles, Special Projects Director, Rocky Mountain 
         Region of the Pulp and Paperworkers' Resource Council

    Mister Chairman, Representative Rehberg members of the committee. 
For the record my name is Kim Liles, I am the Special Projects Director 
for the Rocky Mountain Region of the Pulp and Paperworkers'' Resource 
Council. I am also a shop steward for Hellgate Local 885 in Missoula, 
Mt and I have been employed at the Smurfit-Stone Container mill in 
Frenchtown as a paper maker for 24 years. I am very grateful for the 
opportunity you have given me to address this gathering of people 
dedicated to the future of our National Forests here in Montana and 
throughout this great nation. As a native Montanan employed in the 
forest products industry, I like many Americans am very concerned with 
the direction the management of our public lands has taken in the last 
decade or more. For too long we have allowed politics rather than 
common sense and scientific data determine the way we have managed or 
should I say mismanaged our National Forests.
    I have always thought of our public lands and forests to be much 
like a garden, which require tending and care along with thoughtful 
planning and sound practices. Just as a garden requires nurturing so do 
our National Forests. They have become ticking time bombs just waiting 
for a spark to ignite a firestorm. We are also witnessing some of the 
most devastating bug infestations we have seen in recent history also 
adding to the fuel loading in our forests.
    After having toured the Bitterroot burn area of 2000, I came away 
even more disgusted and with a greater concern over where we are 
headed. Having seen the destruction of so much old growth timber, 
habitat devastation and landslides contributing to the degradation of 
streambeds and water quality I wonder how anyone can claim this to be a 
prudent management policy. I do not understand why, when we have the 
ability, technology and where with all, we don't get about the work of 
reclamation, replanting and utilize the destroyed timber to our 
benefit.
    Since when did it become un-American and wrong to make a profit on 
lumber? If we are to believe the environmental extreme community no one 
should make a dime on public lands on anything. Only they it would 
appear should be allowed to benefit through litigation and legal action 
while at the same time good hard working people are put out of work as 
a result of their actions. I as well as many of my co-workers hold them 
responsible and accountable for many of the jobs we have lost in the 
timber industry here in Montana and the Western United States. They 
always talk about compromise, but as I have experienced and seen 
through the years, the only ones who must compromise are those of us 
who rely on our natural resources for our living and survival. Many of 
these same folks who we are constantly fighting on these issues are not 
even from our area. They have no real liability in the matter. It is 
not their jobs that are at risk. Their only supposed liability that I 
can see is their claim of caring for the environment. To that I would 
ask the question of these so-called environmentalists, if they are 
really concerned about the health of our National Forests and our 
environment, is the destruction of over 7.5 million acres of forest 
lands, old growth timber and wildlife habitat and the loss of 24 lives 
as we saw happen in 2003 acceptable? Is this the way to manage our 
forests? Is standing by and doing nothing the right thing to do?
    It is most disturbing to me to see over 345 people in the heart of 
timber country like Libby Montana, lose their jobs and sawmill because 
of the unavailability of timber brought about by appeals, legal 
maneuvering and philandering by others who believe they know what is 
best for us and the environment. These are not just jobs I am speaking 
of but a way of life. Our families, our schools and whole communities 
pay the price as well.
    There is no doubt mistakes have been made in the past in managing 
our National Forests, but we must leave the past behind us and look 
ahead. I am one of those who believe we can have both a healthy 
environment and vibrant economy and still utilize our most renewable 
natural resource, timber. We must use common sense and be realistic in 
our expectations. When we come to a consensus we need to stick with our 
decisions and eliminate the last minute appeals and legal challenges 
after we have agreed. This happens all the time and further erodes our 
ability to meet the challenges that we face today. Honesty, integrity 
and common sense must be a part of the process just as much as science 
and the public review process. Ultimately the health of all of our 
public lands lie in the balance. How we address this issue will most 
assuredly determine our ability to deal with other issues we will face 
in the future.
    We have already seen the devastating results of allowing politics, 
emotional rhetoric and radical agendas to dominate the discussion. I 
can only hope we allow common sense and credible science be our guide 
now. The tremendous level of frustration I have experienced in talking 
to some of our Forest Service personnel here in Montana our Regional 
Director Brad Powell as well as Chief Bosworth and his folks in 
Washington is disheartening. It is time we allowed our professional 
land managers to do their jobs. It is also time we did what is right 
for our forests our economy and our communities. All I would like to 
see is a balance in this issue to take us into the future, forgetting 
the mistakes of the past and moving on in diligence. We have no more 
time to waste. Our forests are dying and burning up before our very 
eyes. We all share the blame for what we are now witnessing so lets get 
on with the business of properly managing what we have so it will be 
there for the future.
                                 ______
                                 
    The Chairman. Thank you.
    Mr. Sanders.

    STATEMENT OF GORDON SANDERS, RESOURCES MANAGER, PYRAMID 
                     MOUNTAIN LUMBER, INC.

    Mr. Sanders. Mr. Chairman, members of the Committee, my 
name is Gordon Sanders, Resource Manager for Pyramid Mountain 
Lumber here in Seeley Lake. Welcome to Seeley.
    Pyramid is a small independent sawmill, locally owned and 
in continuous operation since 1949. As the oldest surviving 
owner-operated mill in Montana, we produce everything from 1 by 
4's to 12 by 12's. All species and sizes of logs are utilized 
to produce finished lumber, sold primarily to nontraditional 
markets, adding value to unique products and staying away from 
commodity markets.
    Pyramid has evolved over a long history. As reflected in 
our mission statement, we're a progressive, versatile 
organization providing long-term employment through the 
production of quality lumber products. This requires commitment 
to personnel development, ongoing marketing efforts, efficient 
utilization of all assets and good stewardship of natural 
resources. Pyramid is dedicated to helping landowners sustain 
their forests for present and future generations. We believe 
active forest management can create healthy forests and improve 
other resources.
    Currently, Pyramid employs 131 full-time dedicated and 
highly trained Montanans in our plant and 33 contractors with 
their employees. Combined, Pyramid contributes $147,000 per 
employee each year to Montana's economic base.
    Small independent mills in rural communities provide the 
basis for economic stimulus and diversification as well as 
stability to the Rural West. Pyramid and Seeley Lake 
characterize the West and what makes Montana the last best 
place: timber-dependent communities with community-dependent 
timber.
    In the early years, there were 19 mills within a 60-mile 
radius competing for timber. Now, there is one. Statewide, 
Montana has nine small independent sawmills, one of which is 
currently shut down, and four large forest products companies, 
all 50 to 100 miles apart. The industry continues to change, 
reacting to conflicting interests on Federal lands. More than 
30 mills have closed in Montana since the mid '70's and the 
percentage of Federal timber likewise has fallen. Until the 
'90's, Pyramid processed 80 percent Federal timber, and last 
year it was 10 percent. Community-dependent timber. Any forest 
management or forest restoration requires healthy rural 
communities with a strong, trained and motivated workforce of 
skilled labor, contract loggers, log haulers, road contractors 
and suppliers.
    As a non-fee land owning company, Pyramid's survival has 
been a direct result of long-term relationships, implementing 
landowner objectives and performance. We have been instrumental 
in actively supporting and participating in the changing timber 
industry, which has modernized over the last 15 years. Our 
culture has changed, and you heard that from Senator Anderson. 
The development and adoption of voluntary forestry best 
management practices established guidelines of partnership 
between landowners and forest professionals to ensure proper 
forest management and protection of soil and water resources.
    Our professional loggers and foresters are carefully and 
thoughtfully harvesting trees on various ownerships and across 
landscapes, truly light on the land. Also, state-of-the-art 
mills, as you saw earlier today, with computerized machine 
centers are utilizing all that is possible out of every tree, 
getting more with less.
    The new paradigm, which just means model, for developing 
solutions for management challenges of Montana's national 
forests will revolve around local collaboration, not consensus. 
It's simply working with others, transparency and openness. 
Rural communities and their family owned sawmills will have 
significant influence over Federal actions and active 
management of our community-dependent forest resources. Healthy 
forests need communities with skilled labor and equipment to 
manage them. They also need entrepreneurs and investors, 
bonding companies with renewed confidence in the government's 
ability to perform in order to provide suppliers, housing, 
clothing, places to shop, banks. And in places like Seeley 
Lake, we welcome the additions to the local economy which are 
convenience stores, speciality shops and golf course, cross-
country ski and snowmobile trails, motels and restaurants.
    Stewardship is the vehicle which opens the doors for 
cooperation, community involvement, transparency and rebuilding 
trust in our public land management agencies. Vision, combined 
with goods for services provides for multiple benefits within 
rural communities. Stewardship contracting is not the only 
means, but it is a start.
    In conclusion, increasing support for stewardship 
contracting, which focuses on end results, not process, and 
capitalizing on its natural progression toward a public private 
partnership will achieve active forest management, ecological 
integrity and social and economic justice for workers in rural 
communities. Above all, building trust between the public and 
the hostile triangle, the Forest Service, environmentalists and 
the timber industry, all leads to confidence in our 
professional land managers and at the same time increases 
certainty for the few remaining mill owners.
    The supporters for such an approach are diverse and 
understand the interdependency between ecology, economy and 
community, and the common concern is forest health. It is this 
common ground that provides a basis for a new social contract 
between urban and rural America.
    The Forest Service and BLM role is to welcome the 
opportunity to participate in the dialog, maintain transparency 
and stay focused on getting good work done, actively, not 
passively, yet light on the land, protecting the soil and air 
and water resources and wildlife habitat.
    Rural stewardship is good for the communities and good for 
the land. It is the new beginning to care for the land and 
serve the people, and truly defines the greater good.
    Thank you, and I appreciate the good work of the Committee.
    [The prepared statement of Mr. Sanders follows:]

  Statement of Gordon D. Sanders, Resource Manager, Pyramid Mountain 
                              Lumber, Inc.

    Mr. Chairman, Members of the Committee:
    For the record, my name is Gordon Sanders, Resource Manager for 
Pyramid Mountain Lumber, Inc. here in Seeley Lake, Montana.
    Pyramid is a small independent sawmill, locally owned and in 
continuous operation since 1949. As the oldest surviving owner operated 
mill in Montana, we produce everything from 1x4's to 12x12's. All 
species and sizes of logs are utilized to produce finished lumber sold 
primarily to non-traditional markets, adding value to unique products 
and staying away from commodity markets.
    Pyramid has evolved over our long history. As reflected in our 
mission statement, ``We are a progressive, versatile organization 
providing long term employment through the production of quality lumber 
products. This requires commitment to personnel development, on going 
marketing efforts, efficient utilization of all assets and good 
stewardship of natural resources. Pyramid is dedicated to helping 
landowners sustain their forests for present and future generations. We 
believe active forest management can create healthy forests and improve 
other resources''. WE ARE THE STEWARDSHIP COMPANY.
    Currently, Pyramid employs 131 full time dedicated and highly 
trained Montanans in our plant and 33 contractors and their employees. 
Combined, Pyramid contributes $147,000/employee to Montana's economic 
base.
    Small independent mills in rural communities provide the basis for 
economic stimulus and diversification and stability in the rural west. 
Pyramid and Seeley Lake characterize the West and what makes Montana 
the 'Last Best Place'. Timber dependent communities with community 
dependent timber.
    In the early years there were nineteen mills within a sixty mile 
radius competing for timber. Now there is one. Statewide, Montana has 9 
small independent sawmills (one of which is shutdown) and 4 large 
forest products companies, all 50 to 100 miles apart. The industry 
continues to change, reacting to conflicting interests on federal 
lands. More than 30 mills have closed in Montana since the mid 70's and 
the percentage of federal timber processed has likewise fallen. Until 
the 90's, Pyramid processed 70 to 80% federal timber and last year it 
was 10%. Community dependent timber. Any forest management or forest 
restoration requires healthy rural communities with a strong, trained 
and motivated workforce of skilled labor, contract loggers, log 
haulers, road contractors, and suppliers.
    As a non-fee land owning company, Pyramid's survival has been the 
direct result of long term relationships, implementing landowner 
objectives and performance. Working closely with private forest 
landowners has helped us realize the relationship between forest health 
and the timber industry. Pyramid Mountain Lumber has been instrumental 
in actively supporting and participating in the changing timber 
industry, which has been modernized over the last 15 years. A culture 
has changed. The development and adoption of voluntary forestry best 
management practices established guidelines of partnership between 
landowners and forest professionals to insure proper forest management 
and protection of soil and water resources.
    Our professional loggers and foresters are carefully and 
thoughtfully harvesting trees on various ownerships and across 
landscapes (truly light-on-the-land). Also, state of the art mills, 
with computerized machine centers are utilizing all that is possible 
out of every tree (getting more with less).
    The new paradigm for meeting the challenges for management on 
Montana's National forests will revolve around collaboration, 
transparency and openness. Rural communities and their family owned 
sawmills will have significant influence over federal actions and the 
active management of our community dependent forest resources. Healthy 
forests need communities with skilled labor and equipment to help 
manage them. They also need entrepreneurs and investors with renewed 
confidence in the government's ability to perform in order to provide 
suppliers, housing, clothing, places to shop, banks, etc. In places 
like Seeley Lake welcome additions to the local economy are convenience 
and specialty stores, a golf course, cross country ski and snowmobile 
trails, motels and restaurants.
    Stewardship is the vehicle which opens the doors for cooperation, 
community involvement, transparency and rebuilding trust in our public 
land management agencies. Vision, combined with goods for services 
provides for multiple benefits within rural communities. Stewardship 
contracting is not the only means but, it is a start.
    In conclusion, increasing support for stewardship contracting 
(which focuses on end results) and capitalizing on this natural 
progression toward a public/private partnership will achieve active 
forest management, ecological integrity and social and economic justice 
for workers and rural communities. Above all, building trust between 
the public and the hostile triangle - forest service/environmentalists/
timber industry - leads to confidence in our professional land managers 
and at the same time increases certainty for the few remaining mill 
owners.
    The supporters for such an approach are diverse and understand the 
interdependency between ecology, economy and community and the common 
concern is forest health. It is this common ground that provides the 
basis for a new social contract between urban and rural American.
    The Forest Service and BLM role is to welcome the opportunity to 
participate in the dialogue, maintain transparency and stay focused on 
getting good work done, actively not passively, yet light-on-the-land. 
. .protecting soil, air and water resources, and wildlife habitat.
    ``Rural stewardship is good for communities and good for the 
land.'' It is the new beginning to ``care for the land and serve the 
people'' and truly defines the greater good.
                                 ______
                                 
    The Chairman. Thank you, Mr. Sanders.
    I'd like to, I guess, just ask more of a broad question and 
I'll start with Mr. Sanders.
    Do you believe that as part of the policy of the Federal 
Government that we should protect endangered species habitat in 
our forest watershed? You know, in the enforcement of the Clean 
Water Act, that we should have a policy that protects clean 
water, protects endangered species habitat as part of our 
national forest plan?
    Mr. Sanders. Well, Mr. Chairman, in response, the original 
laws that were set up, the Endangered Species Act and the Clean 
Water Act, were designed for very good reasons. And what's 
happened over the course of time is through litigation, they 
have continually evolved into something entirely different that 
I don't believe the original drafters in Congress had any 
intention would lead to the obstruction that we see in day-to-
day management on national forest lands.
    And I think it is--and I appreciate the good work of the 
House in moving legislation forward in supporting categorical 
exclusion as efforts to move--allow the Forest Service and 
those professionals to truly do their job on the landscape. And 
I think there probably will be additional needs that Congress 
is going to have to take hold of and make some changes in order 
to really accommodate the needs of the landscape.
    The Chairman. Mr. Liles, to you I'd ask a very similar 
question. And, obviously, you have a long history in this area, 
or your family does. Do you see a need to protect our habitats, 
our forests for wildlife and endangered species?
    Mr. Liles. Without a doubt. I mean, that's why I live here. 
I love this state, I love this area. There is a need. There is 
a need for our ability to protect wildlife. There's a need for 
our ability to protect our forests. But as Gordy said, the ESA 
has morphed into something that it was not intended to be, and 
it has tied the hands of our land managers. It has turned all 
land management and species management into a litigatory 
process. And it's upsetting to me to see that happen when we do 
have the intelligence, we do have the ability to do a better 
job. But, yeah, we do need to manage our resources. There's no 
doubt in my mind.
    And I live here, I'm a native Montanan and I love it here. 
I, as a timber resource worker, most certainly don't want to 
see the destruction of our environment. It just bothers me when 
I know we can do a better job than what we've been doing, and 
then I see the destruction that occurs not only in the loss of 
timber, but the habitat that we lose in these wildfires. I 
mean, we don't talk enough about them. But when we have these 
crown fires and we have these high-intensity fires, the land 
becomes sterile for a period of time. We don't get in there, we 
don't do any kind of reclamation work. And that, certainly, is 
not prime wildlife habitat, nothing grows. So, I'm real 
concerned that we do a proper job of management.
    The Chairman. Mr. Kelly, in reviewing your testimony and 
your oral testimony and your written testimony that you've put 
in it, a lot of what you said I agree with because I think it's 
time that we stopped, when we talk about management of our 
national forests and public lands, that we stop just looking at 
the trees. We've had decades of debate and arguments about 
trees, and the wildlife habitat has gotten lost in that debate, 
the impact on our watersheds has gotten lost in that debate. 
The impact on clean air in what forests, a healthy forest, is 
able to provide in terms of clean air gets lost in that whole 
debate.
    But I think where I begin to disagree with you is I believe 
that that ecosystem does need to be managed and that you can't 
just completely withdraw from it, that there has to be--there 
has to be some kind of a management plan that's in place that 
does involve thinning, that does involve some timber 
harvesting, that does involve grazing. I don't think you can 
just pull out from that. And it appears that, from your 
testimony, that you don't see--you don't see that. In fact, at 
one point you say that alterations to the home and vegetation 
within 200 feet can effectively reduce home losses, and we must 
focus our attention on prevention of action within this 200 
feet and that that is the only area that you see us going in 
and doing anything. Is that an accurate representation of 
what's in your testimony?
    Mr. Kelly. Chairman Pombo, that's an accurate 
representation of if we're going to focus and prioritize and 
use limited congressional dollars, which are tax dollars, to 
try to address the fire risk to structures, to the people most 
affected by fire, that's what I'm saying, is that this is where 
we should put our money, this is where the smart money should 
go, and protecting communities next in line. And I don't think 
anybody said it any better, conversely, our Senator, Conrad 
Burns says, we should log the back country. Well, I'm trying to 
make a distinction between logging the back country and 
focusing the money, which is limited, to protecting homes by 
helping people who own the homes. And a lot of that isn't going 
to come through the Forest Service. It's going to come in 
direct assistance to rural fire companies and to counties, and 
it isn't going to come through USDA. And that's just what I was 
trying to get at there.
    The Chairman. Is your argument that we don't have enough 
money to do more than the 200 feet or--.
    Mr. Kelly. I think it's being misappropriated into areas of 
the forest that are going to make absolutely no difference for 
the homeowner. And my prioritization, when it comes to fire and 
fire protection, is centered around the home, which I think 
most people, if you ask them, that's what their biggest concern 
is, you know, is my house going to survive a wildfire.
    The Chairman. No, there's no question if you ask somebody 
who lives there, that is their priority. But we're talking 
about on a bigger--on an ecosystem-wide approach that you 
brought up in your testimony. You know, I don't know how this 
happened, but the environmental community used to talk about 
protecting the entire forest and that our focus needed to be on 
the entire forest. As soon as we got into this healthy forest 
debate, all they want to talk about is that urban interface.
    Mr. Kelly. Well, I don't think that's what my testimony 
necessarily does reflect. It's just when I got into this area 
that I believe was the focus of our appropriations and the 
legislation that passed the House, that's the way I interpret 
that legislation is that we're trying to do something 
specifically about fire risk. And that was, in specific 
terms--.
    The Chairman. That is what the Healthy Forest Initiative 
was focused on, but--.
    Mr. Kelly. I mean, I'm hoping for a broader prospective 
than that, but I think that's what we got.
    The Chairman. A much broader perspective than 200 feet 
around a house. I mean, a couple of months ago, we had a 
hearing in Arizona where in that particular fire, the fire was 
jumping a mile. And if you're only protecting 200 feet, if 
that's where you're going to concentrate on, I think you're not 
even doing what we're trying to do in the bill, you're just 
trying to limit how far into the forests we can go. And I think 
that--you know, if we're ever going to solve this, we all have 
to agree that we need to protect endangered species habitat. We 
all have to agree that we need to protect wildlife.
    Mr. Kelly. I agree with you there. There's no question.
    The Chairman. We need to all agree on that. But we also all 
have to agree that we can't just step out of the forest and say 
it's OK now.
    Mr. Kelly. I just don't want to overpromise. If we promise 
we're going to protect people's homes, I want to make sure 
that's the first thing we do. And if we don't run out of money 
doing that, then I think we should discuss communities. And 
then we should discuss beyond that. But it's a physical 
limitation and a limitation of budget. Again, we don't know 
where the money goes. The Forest Service still does not have an 
accounting system--that neither you nor I have a clue where the 
money goes because there is no system. So, until we get that, I 
don't have the assurance that is going to be efficiently 
managed by the Agency. A lot of people think this is an agency 
that is completely out of control. And it's just one of those 
things where you trust them, maybe, but a lot of people in 
Montana don't have that kind of trust and confidence in the 
Agency to do what it says it's going to do.
    The Chairman. Well, I think there's a broad agreement that 
when you get into large bureaucracies that they do have a 
tendency to get out of control. And I don't think you're going 
to have a lot of debate over that.
    Mr. Kelly. But help us deal with that.
    The Chairman. What Congress is trying to do is gain more 
control over what the Forest Service does to have a more exact 
language in the bills that we pass to dictate.
    I do have one final question for you and that's, in your 
testimony you talk about that we --that the Healthy Forest 
Restoration Act deregulated logging and roadless areas, 
threatened endangered species habitat, gave the Secretary sole 
discretion to log old growth trees. The bill also permits the 
Forest Service to conduct logging without considering any 
alternatives and creates legal exemptions for unlimited number 
of projects of up to 1000 acres each for lands that agencies 
claim are at risk of insect infestation. Did you read the bill?
    Mr. Kelly. I haven't read the final passed version of the 
bill.
    The Chairman. Because none of this is in the bill.
    Mr. Kelly. Was that stricken from the bill? It was in the 
bill that was introduced under that--.
    The Chairman. There is a up to 1000 acres on insect 
infestation, but it is capped. I believe it was 250,000 acres 
nationwide.
    Mr. Kelly. Well, that good news.
    The Chairman. There's nothing in the bill that repeals the 
roadless areas, there's nothing in the bill that repeals the 
endangered species habitat, there's nothing in the bill that 
gives the Secretary the sole discretion to log old growth 
trees. None of that was in this bill.
    Mr. Kelly. It was in the original draft that I read on the 
Internet. And if it's stricken, I appreciate the accommodation 
there.
    The Chairman. I've never seen a draft--and I've been 
working on this bill for about 8 years, and I've never seen a 
draft that does any of those. If you do have that, I'd 
appreciate it if you would provide it for the Committee because 
I've never seen a draft, ever, that repealed the Endangered 
Species Act--.
    Mr. Kelly. If you would agree to leave the record open--.
    The Chairman. We will leave the record open for you to do 
that, because I have never seen a draft that does that. I would 
not support a bill that repeals the Endangered Species Act, 
that repeals all of the roadless areas, that gives the 
Secretary sole discretion to log old growth forests. I mean, I 
would never support that, Mr. Rehberg would never support that. 
And we were intimately involved with this bill--I have been for 
the last 8 years, and I know Denny has been for 3 years with 
doing this. That never happened.
    Mr. Kelly. That's reassuring that it did not happen. It 
is--one of the questions and I think we still haven't addressed 
the question is the idea of suitability. If we're going to log 
in areas that were determined not suitable in the forest plans 
under the (6)(k) provision of NFMA, what are we going to do in 
all this vast parts of the forests that were never considered 
part of the suitable timber base. We are now going to be 
logging in these areas. And a lot of that concern goes to these 
issues of endangered species habitat protection.
    The Chairman. But this bill is not about logging.
    Mr. Kelly. Well, there's going to be logging, for sure.
    The Chairman. There may be some thinning as part of this 
bill, but there's no--.
    Mr. Kelly. But there will be increased logging. I'm 
absolutely sure of that as a result of this bill. That's a 
certainty. And that's a promise I think that the Congress made 
to the mill owners.
    The Chairman. I've never promised that to anybody.
    Mr. Kelly. But I think that's their understanding, that 
they like this bill because it's going to open up more timber.
    The Chairman. Well, I'll let him answer that. But this is 
about trying to restore a more natural, more healthy forest. 
That's what this bill is about, to reduce the risk of 
catastrophic fire. If that's part of that, there is thinning in 
some areas, there is removal of underbrush in some areas. If 
there is an economic value to what is taken out of the forests, 
great. If there's not, we have to pay for the whole thing. And 
that's what the bill is about. It's not about opening up 
roadless areas to logging. No one has ever proposed that. The 
only place I've ever heard that is on environmentalists' web 
sites.
    Mr. Kelly. Well, the Bush Administration certainly is 
hoping for that and--.
    The Chairman. Well, if they are, they haven't talked to me 
about it.
    Mr. Kelly. Well, the Roadless Rule has certainly been put 
in jeopardy from the previous administration. I mean, there's 
just no question about the trend here, which is toward more 
commodity extraction and less public participation at the early 
end. This categorical exclusion, for instance, is one of the 
exceptions from the process.
    The Chairman. I'm going to recognize Ms. Bordallo because 
we could go on for a long time.
    Ms. Bordallo. Thank you, Mr. Chairman.
    I would like to ask a question of Mr. Liles. You're a union 
member, and today you're representing unionized pulp and 
paperworks; is that correct?
    Mr. Liles. Not only unionized, but we have a lot of our 
members that are nonunion as well throughout the United States.
    Ms. Bordallo. All right. Would you say, then, do both union 
and nonunion lumber mill and papermill workers advocate similar 
public policies for managing Montana's national forests?
    Mr. Liles. I would say most definitely they do.
    Ms. Bordallo. 100 percent?
    Mr. Liles. Yeah.
    Ms. Bordallo. Thank you. I have also a question for Mr. 
Kelly.
    Do you believe the Federal courts should overlook Forest 
Service analysis when ruling on hazardous fuel reduction 
projects? And do you believe there is the opportunity for 
imbalance in judicial rulings on hazardous fuels reduction 
projects? And what do you recommend in terms of changes in law 
to address this imbalance?
    Mr. Kelly. Congresswoman Bordallo, I'm not sure we have the 
kind of problem that we are discussing as far as a catastrophic 
problem or imbalance. There are a lot of scientists, forest 
ecologists who think that everything that's going on in the 
forest is actually well within the range of what's called the 
natural variability. Obviously, people are impacted when the 
fire hits their local community or their local forests. But 
when you look at, again, the big picture, these fires even in 
drought cycles are fairly routine. It is part of living here in 
the West. It's dry, it's hot. When the wind blows, there's a 
spark, you get out of the way.
    So, as far as the relationship with the courts, my 
understanding of the role of the courts is to interpret the 
laws that are passed by Congress. And in doing so, I think the 
Forest Service gains a better understanding of what it should 
and shouldn't be doing. And if you look at the Forest Service's 
record and not just on this issue of fuels reduction, but just 
over a long period of time, the Forest Service's record is not 
very good in the courts. And recently, we have seen some 
criticism of the courts. I think that criticism should be 
directed back to the Agency itself for failing to follow the 
law. I mean, if the bureaucracy can't follow the law, again 
this is an area where I think Congress, an oversight by 
Congress can encourage the Forest Service somehow through 
incentives or just more regulation or some mechanism to get 
them to follow the law. Then, you know, we wouldn't be arguing 
over a lot of this stuff. So, I hate to--.
    Ms. Bordallo. And it's time for the courts--.
    Mr. Kelly. --be the scapegoat for something that really is 
a problem between Congress and the Agency and the public and 
the Agency. And that's why we have already passed laws. The 
NFMA in 1976 was passed because the Forest Service got 
completely out of control. They had lost complete public 
confidence. And the Congress, to it's credit, brought the 
Forest Service back into a process where the public could 
participate meaningfully. It regained and restored some of that 
confidence. And I see now we are going through another cycle of 
this where the Forest Service is forging ahead with a brand new 
experiment that nobody really knows what the heck it is and 
it's going cost a ton of money.
    Ms. Bordallo. Well, I do agree.
    Mr. Kelly. And, so, I think we should be more cautious and 
reserve our money and make them demonstrate that they can 
produce for us.
    Ms. Bordallo. Well, I do agree that this is very--you know, 
it takes so much time.
    Mr. Kelly. Yeah.
    Ms. Bordallo. And this is the big problem.
    Mr. Kelly. But the forest can't be fixed or even known in a 
short amount of time. It's just the way it is. And 
unfortunately, we can't know everything about the forest in a 
snap second.
    Ms. Bordallo. Thank you.
    I have one last--well, actually, it's not a question, it's 
just a comment to Mr. Gordy Sanders. I want to thank you for 
that very enlightening tour through the mill this morning. 
Chairman Pombo and I were talking on our way over here to the 
hearing that it was very, very interesting. And you were very 
kind--.
    Mr. Sanders. Thank you.
    Ms. Bordallo. --to take us personally on that tour. And I 
want to say that we don't build on Guam with lumber, we build 
with concrete because of our super typhoons that we have on the 
island every now and then, but I don't want to scare anyone 
from coming to Guam because we don't have them that often.
    Mr. Sanders. We could sell you some lumber.
    The Chairman. I'm coming.
    Ms. Bordallo. That's right. Mr. Pombo has promised to come, 
and Dennis has also promised. But I will remember your lumber 
mill the next time I buy my wood chips because now I saw how 
it's all done.
    And I also want to comment, Gordy said to me, he said, I 
was the first one to ever tour the mill with open shoes. So, 
thank you very much, Mr. Sanders. We really appreciate that 
gesture.
    Mr. Sanders. You're welcome.
    The Chairman. Mr. Rehberg.
    Mr. Rehberg. Thank you, Mr. Chairman. I'm going to invite 
you to tour my feedlot.
    I will begin by the way I would normally end. I know we're 
running out of time. And again, thank you, Mr. Chairman for 
this opportunity and thank you panel members for being here 
today.
    I want to ask a question of the five of you, and I think 
Ms. Dahl answered the question but I just want to, you know, 
for the record get an answer from the five of you. And starting 
with you, Mr. Sanders, do you support the Clearwater 
Stewardship Project?
    Mr. Sanders. Congressman Rehberg, Mr. Chairman, yes, I do. 
The Clearwater Stewardship Project is an excellent example of 
how a public private partnership can work, and it is very open, 
very transparent, the monitoring Committee involved, as well as 
our participation as a purchaser, in working with the Forest 
Service in unknown territory. This type of goods-for services 
approach really had never been tried, particularly at the 
level. And it is a perfect example of how things could be done. 
And I think stewardship contracting, the bigger, the better; 
landscape level, long-term contracts will serve us all much 
more.
    Mr. Rehberg.  Thank you. I've got you down as a yes.
    Mr. Liles?
    Mr. Liles. Just to be brief, yes.
    Mr. Rehberg.  Ms. Dahl?
    Ms. Dahl. Yes. But I would also like to add that there 
are--in all of the stewardship pilots around the country, every 
one is different and every one is a reflection of what's going 
on at that place. We need to make sure we continue to keep all 
of the stewardship contracting authorities available so that we 
can experiment and truly find out if they're good across the 
nation.
    Mr. Rehberg. Thank you. Mr. Harrington?
    Mr. Harrington. Yes. And I'd like to tell you a story from 
a couple of weeks ago. As you recall, we had the Western 
Governors Association tour, and we were looking at the 
stewardship contracting, one of the sale units that Pyramid had 
done. And, of course, there was a broad diversity of people 
that were on that tour. And I happened to be walking back from 
that unit, walking along with some members of the environmental 
community, and I overhead a conversation where one of them 
asked, Well, what do you think of this? Well, this doesn't look 
so bad.
    And I think it points out a couple of things. First of all, 
the success of stewardship contracting concept, and I certainly 
support expanding it. But also, the fact that if you get out on 
the ground and if you actually look at how the rubber meets the 
road with a lot of these things that industry folks have been 
talking about today, as well with--particularly with the 
stewardship contracting, you'll find it doesn't look bad. And I 
think that's the key. I would certainly encourage you to go out 
and take a look at it yourself.
    Mr. Rehberg. Thank you. Mr. Kelly.
    Mr. Kelly. I would certainly prefer to see those type of 
projects be implemented by the Forest Service. And for life of 
me, I can't figure out why they can't do this without everybody 
in the community helping them out. I think the jury is out on 
the--you know, if the monitoring is going to tell us whether 
this is a success or not, we have to wait until those--that 
data comes in and we can analyze it. Again, the process, I 
think, has some promise.
    And finally, I'm kind concerned about the trend toward 
privatization of public resources, public assets. I think in 
the demonstration-size project, these are things that we can 
tinker with and not do a whole lot of damage. But if we get 
whole hog into this, as advocated by the other end of the 
panel, I think that we're going to find out, from the 
monitoring, hopefully, if we continue to do it and fund it 
properly, that if we do have problems it's going to be a big 
problem, so I hope we go cautiously.
    Mr. Rehberg. Just out of fairness, though, you kind of said 
yes. Is that a qualified yes or a yes or a no or--.
    Mr. Kelly. Put me down as a no and show me.
    Mr. Rehberg. OK. Mr. Harrington, if I could finish with 
some questions of you. You talked about some of the projects 
that you have done as a result of the fires and the salvage. 
Are there Federal properties bordering your property?
    Mr. Harrington. Certainly, throughout the state.
    Mr. Rehberg. And they have not been done, if I understood 
your testimony correctly, they have not been salvaged at this 
point?
    Mr. Harrington. No, that's incorrect. They have proceeded 
with salvage operations on the Bitterroot. I think that what 
you're referring to is the Sula State Forest and then some of 
the salvage operations on the Bitterroot. And the numbers I got 
from the Bitterroot Forest a few days ago was they're 
approaching about 20 million board feet of salvage on their 
property.
    Mr. Rehberg. Are there situations where you have property 
bordering Federal properties where they either through appeals 
or some other litigation, have stopped the forestation or the 
reforestation projects that are affecting your environment?
    And what I'm getting at is I'm looking at a piece up here, 
``Nothing is a greater threat to clean water than catastrophic 
forest fire.'' and I'm aware of the clean water standards we 
have in this country. Do you think in any way, shape or form 
that the Federal Government is violating clean water standards 
by not completing some of the projects that have been 
litigated?
    Mr. Harrington. Well, it's an interesting concept. I think 
that the aftermath that we have seen from a lot of the 
catastrophic wildfires that have occurred, the Biscuit fire and 
the Hayman and the fires in the Bitterroot, we have seen 
tremendous sedimentation in streams, debris flows. And by every 
measure, the water quality resulting from those debris flows is 
impaired. Whether that act in itself, by not acting to conduct 
harvesting operations and reducing fire behavior when fires do 
come, whether that's in violation to the Clean Water Act, I'm 
going to leave to somebody else.
    Mr. Rehberg. Well, I guess maybe the next question, then, 
isn't fair, but I had hoped that at least you'd carry it back 
to the Governor, and that is, if a lawsuit could be filed for 
potential clean water violation for a potential sale, why 
can't, in turn, the Governor file suit against the Federal 
Government for not taking care of a problem that they're 
creating for land that's owned by the people of the State of 
Montana, that's, through the education trust or the private 
landowners, being affected by an inaction by the Federal 
Government. I don't know if you can answer that question, but I 
wish you can carry that message back.
    Mr. Harrington. I think the concept has merit and, in fact, 
part of the Healthy Forest Restoration Act was trying to 
provide some direction to consider the impacts of nonaction as 
well as the impacts of an action. And I think that concept is 
certainly legitimate and I'll carry that back.
    You know, in terms of any impacts of the management of 
Federal lands on State trust lands, one of the places is the 
Roadless Rule. We have some concerns that if the Forest Service 
is not able to either build or allow construction of roads in 
certain areas of the national forests, that some of the school 
trust lands that we need to manage would be isolated, we would 
not be able to access them.
    The other thing is that with the buildup of insect and 
disease, or with the fires that we've seen, if those lands are 
not managed, and similar to the Moose fire from last summer, or 
the summer before, sorry, we've seen a lot of State trust lands 
in the Sula Forest in 2000 that have been burned, at least 
partially because of the fuel buildup on adjacent Federal 
lands.
    Mr. Rehberg. Did you want to make a quick comment on the 
urban interface?
    Mr. Harrington. You know, on the strategy of thinning 200 
feet around homes and communities to protect communities and 
not touching the areas away from it, I'm reminded of the 
strategy that a certain man named Saddam Hussein recently 
employed in the Gulf War, which was to take the Republican 
Guard and have them circle the city of Baghdad. And I think his 
strategy was that we will ring the city and they will protect 
us from the Coalition forces. Obviously, it didn't work.
    And I think this strategy is very much the same type of 
strategy that he employed, it will not work. The 200 foot comes 
from some research, very good research that was done by a 
gentleman with the Fire Sciences Lab in Missoula, and I saw a 
presentation on that. And under very controlled circumstances, 
he demonstrated that, yeah, if you do thin around 200 feet 
around your homes that you can improve the ability of that 
house to survive wildfire. But again, we're dealing with 
natural systems here. And we're dealing with 40-miles-an-hour 
winds a lot of times, and we're dealing with humidities in the 
single digits and things like that. It just will not work.
    And on behalf of all of the volunteer and paid firefighters 
across the country that have to try to defend those structures 
when these conflagrations are coming at them, I would implore 
you not to buy into this argument because it's just not good 
science.
    Mr. Rehberg. Thank you. Thank you, Mr. Chairman.
    The Chairman. Thank you. I think with this panel we could 
probably go on all day. It was some very compelling testimony, 
very interesting. But I think that to a large degree this 
represents, this panel represents the debate or the fights that 
we've gone through back in Washington in trying to develop a 
balance between competing interests and ideologies and ideas is 
what we've attempted to do. And as I said earlier, the Healthy 
Forest Initiative we've been working on for years. And we 
finally, I think, this time came up with a bill that is 
balanced, it represents a lot of different interests, 
compromises were made in an attempt to move forward, but that's 
just one part of protecting the forest. You know, trying to 
reduce the risk of catastrophic fire is just one small part of 
having a healthy and natural forest and protecting endangered 
species habitat, protecting your clean water and your 
watersheds, all of that has to be considered in developing 
public policy in dealing with our public lands. The impact on 
the economy is obviously part of that. It does have to be a 
balance. And I think that if you look at the Healthy Forest 
Initiative that passed the House on a very large bipartisan 
vote, we would not have achieved that vote if we hadn't have 
made some of the compromises that we did in an effort to try to 
address concerns that people have. But hopefully, that bill 
will be signed into law in the near future and we can begin to 
take care of that part of our national public lands.
    But we have a lot of work to do. There's no question about 
it. And there are laws that are currently on the books that we 
need to review. There are regulations that are being 
implemented that may need to be changed. And through the 
Administration, they may have to make some adjustments to those 
in order to better reflect what we know today is a better way 
of taking care of our forests than what we knew 10 years or 30 
years ago when a lot of these laws were developed.
    So, I want to thank this panel for your testimony. I will 
say that the Committee welcomes any further testimony that 
anyone may have that can be submitted to the Committee. The 
hearing record will be held open. If there's think further 
questions that members of Committee have that they would like 
to submit to you in writing, we'll give you time to answer 
those in writing as well, but we would like to have that done 
so they can be part of the official hearing record.
    For anyone in the audience that wishes to submit further 
testimony for the record, you can e-mail, mail or fax or it to 
the Resources Committee. And I'm told that there are handouts 
by the door that have the contact information. Rather than me 
read it off the paper here, there are handouts by the door that 
have the contact information on them. So, if anybody does wish 
to include further testimony for this hearing.
    Unidentified speaker. What's the deadline on that?
    The Chairman. Two weeks. We will hold it open for 2 weeks 
to give you an opportunity to submit testimony.
    I want to conclude by thanking Congressman Rehberg for 
hosting us here. And, obviously, this is an extremely important 
topic here in Montana, but it's an extremely important topic 
across the country. It benefits the Committee dramatically to 
have the opportunity to get out and see some of these areas and 
actually talk to people that live and work here. Most of you 
would never have the opportunity to testify before a 
Congressional Committee other than us coming out here. So, we 
take as much from this as I hope that you do. So, thank you all 
very much. Thank you, Congressman Rehberg. And thank you 
Congresswoman Bordallo for being here as well.
    This concludes today's public hearing. I want to thank all 
the people of Seeley Lake and Montana for hosting us.
    [Whereupon, at 12:45 p.m., the Committee was adjourned.]


</pre></body></html>
